<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                       ENERGY AND WATER DEVELOPMENT
                         APPROPRIATIONS FOR 2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION
                                 _______

               SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT

                   MICHAEL K. SIMPSON, Idaho, Chairman

  RODNEY P. FRELINGHUYSEN, New Jersey    MARCY KAPTUR, Ohio
  KEN CALVERT, California                PETER J. VISCLOSKY, Indiana
  CHARLES J. FLEISCHMANN, Tennessee      MICHAEL M. HONDA, California
  JEFF FORTENBERRY, Nebraska             LUCILLE ROYBAL-ALLARD, California
  KAY GRANGER, Texas                     
  JAIME HERRERA BEUTLER, Washington      
  DAVID G. VALADAO, California

NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
  Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
  Committee, are authorized to sit as Members of all Subcommittees.

           Donna Shahbaz, Angie Giancarlo, Loraine Heckenberg,
                    Perry Yates, and Matthew Anderson
                             Staff Assistants
                                 _______

                                  PART 5

                                                                   Page
  U.S. Corps of Engineers.....................................        1
  Bureau of Reclamation.......................................       97


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 _______
 
          Printed for the use of the Committee on Appropriations
                                 _______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-875                         WASHINGTON : 2015 








                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey    NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama            MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                     PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho              JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas            ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                  LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                SAM FARR, California
  TOM COLE, Oklahoma                     CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida             SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania          BARBARA LEE, California
  TOM GRAVES, Georgia                    MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                    BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                 STEVE ISRAEL, New York 
  JEFF FORTENBERRY, Nebraska             TIM RYAN, Ohio  
  THOMAS J. ROONEY, Florida              C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee      DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington      HENRY CUELLAR, Texas  
  DAVID P. JOYCE, Ohio                   CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California           MIKE QUIGLEY, Illinois     
  ANDY HARRIS, Maryland                  DEREK KILMER, Washington
  MARTHA ROBY, Alabama                  
  MARK E. AMODEI, Nevada                 
  CHRIS STEWART, Utah                        
  E. SCOTT RIGELL, Virginia               
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
                William E. Smith, Clerk and Staff Director

                                   (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2016

                              _________      
                              
                                      Wednesday, February 11, 2015.

                 UNITED STATES ARMY CORPS OF ENGINEERS

                               WITNESSES

JO-ELLEN DARCY, ASSISTANT SECRETARY, ARMY FOR CIVIL WORKS, UNITED 
    STATES ARMY CORPS OF ENGINEERS
GENERAL THOMAS P. BOSTICK, COMMANDING GENERAL AND CHIEF OF ENGINEERS, 
    UNITED STATES ARMY CORPS OF ENGINEERS
    Mr. Simpson. The committee will come to order. Before we 
start this hearing, I wanted to just take a minute if I could 
before my opening statement to recognize we have some empty 
chairs with members not here yet but will come. We have a 
couple of new members on the Majority side and a couple of new 
members on the Minority side.
    As I said, on our side, Congresswoman Herrera Beutler and 
Congressman Valadao are new to this committee. I suspect they 
will be here shortly. Marcy can introduce the new members on 
her side.
    I did want to take just a second, if I could, to recognize 
that we have unfortunately one more empty chair than we had 
planned on, as everyone knows, last week with the passing of 
Mr. Nunnelee, who was the vice chairman of this committee for 
the last couple of years.
    It was a great loss both to his state and really to the 
country, but particularly to this committee for the work that 
he did. He was always a gentleman and one of those southern 
gentlemen. When you think of the term ``southern gentleman,'' 
he exemplified it.
    I enjoyed working with him greatly. He made a true 
difference because he knew how to work with other people, 
people he sometimes disagreed with. He was always a gentleman. 
We are going to miss him greatly. It is one of those sad events 
that life works mysteriously sometimes.
    We do thank God for the brief time we had him here and our 
opportunity to work with him and interact with him and for the 
great job he did while he was here.
    Mr. Rogers, if you have any comments?
    Mr. Rogers. Thank you, Mr. Chairman. I was just thinking 
how qualified Alan Nunnelee was. He had great experience back 
in Mississippi as the head of their appropriations process and 
in general.
    He came to us well equipped, both in his experience but 
more importantly in his demeanor. There was not a mean bone in 
his body. He was a perfect southern gentleman in the 
traditional thought about that type of person.
    He was a rare individual that was driven to serve others, 
loyal to his family, loyal to his friends, loyal to his 
country. A true gentleman through and through.
    On this subcommittee and the other subcommittees of 
Appropriations, he was a workhorse, ever willing to dig down 
and get the hard work done.
    As a friend, no one could ask for a more loyal and decent 
man by your side. He is a rare individual that has left a large 
hole in our hearts, in this subcommittee's, our Appropriations 
Committee, and the Congress.
    We will surely miss him. We want to especially express our 
deepest sympathies to his wife, Tori, and three children, Reed, 
Emily and Nathan. A true, true loss to all of us. Thank you.
    Mr. Simpson. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. Thank you for allowing 
us time to express in the official record our deepest 
condolences on the passing of Alan Nunnelee, our beloved 
colleague, to his wife, to his children. Congressman Rogers has 
eloquently talked about them.
    Personally, whether it is this group of members or other 
members who served with Congressman Nunnelee, when I would look 
down the table here, the arc of the table, his face would 
always be there. I knew we were officially in session. He had a 
way of sitting in his chair and reaching toward the table that 
really was unique to him. He was rather tall. I think that may 
have contributed to that.
    There was just such an ease about him, and it was a real 
joy to serve with him. He was a very honorable man, someone who 
served his constituents well. I am in exactly the opposite end 
of the country that he came from, but he was such a gentleman. 
I think he had a very kind nature, very good humor, which 
contributed to the well functioning of this committee, and his 
sort of effervescent spirit kind of enlivened us all.
    I am going to miss that very much. I hope that the angels 
lift his being very high and bring comfort to those who mourn 
his loss. We surely do that. He did inspire us to carry on, and 
I hope we will do that certainly during this session, and do 
something especially in his memory so that his living legacy 
will continue forward.
    I thank you, Mr. Chairman, for allowing us a few moments to 
commemorate his life.
    Mr. Simpson. Thank you. Thank you all for being here today. 
We begin this year's budget hearing with a look at the request 
for the Civil Works Program of the U.S. Army Corps of 
Engineers.
    I would like to welcome our witnesses, Assistant Secretary 
of the Army for Civil Works, Jo-Ellen Darcy, the Commanding 
General, and Chief of Engineers, Lieutenant General Thomas 
Bostick. It is good to see you both again and I look forward to 
hearing your testimony. We also have Major General John Peabody 
here, and Mark.
    Mr. Mazzanti. Mazzanti.
    Mr. Simpson. Over the past several years, this 
Administration has at times said all the right things about the 
economic benefits of navigation and economic and public safety 
benefits of flood and storm damage reduction investments.
    Unfortunately, year after year, the budget falls far short 
of actually making progress in any of these areas. Congress, on 
the other hand, has recognized the importance of the Civil 
Works Program by providing the Corps with funding above the 
budget request, including significant increases for the past 
two years.
    For fiscal year 2015, we added $922 million above the 
budget request, and for fiscal year 2014, we had added $641 
million above the budget request.
    Even though the President's fiscal year 2016 request for 
all energy and water programs is increased by $1.8 billion over 
last year's budget, almost every major category in the Corps' 
budget is cut. Navigation funding is reduced by 16 percent.
    Flood and storm damage reduction activities are down 20 
percent. Harbor maintenance activities are cut by 17 percent. 
Construction funding for our inland waterway system is reduced 
by 17 percent, and that is after industries successfully 
lobbied to raise their own taxes to help pay for these capital 
improvements.
    The overall construction account is slashed by 28 percent 
and funding for studies and other planning activities is 
decreased by 20 percent.
    This is not the budget request of an Administration that 
understands the importance of investing in our Nation's water 
resources' infrastructure.
    My concerns are not limited to only the budget request, the 
Administration has also been pushing several policy changes 
that could have a chilling effect on economic development 
across the Nation.
    Their proposed rule to redefine waters of the United States 
is a prime example. This joint proposal by the Corps and the 
EPA would expand Federal jurisdiction under the Clean Water Act 
far beyond what the Supreme Court has said is legal. Using 
tenuous at best connections to navigable waters to force an 
onerous and expensive permitting process on our agricultural, 
industrial, transportation, and other business sectors, as well 
as individual property owners, will hurt not help economic 
progress.
    I would note that I find it interesting that the budget 
request includes an additional $5 million specifically to 
implement this rulemaking.
    This Administration has claimed that this rule would 
streamline the permitting process by providing clarity and 
certainty for applicants. If that is true, the Corps should 
need less money to process permits, not more.
    Taken individually and in combination, these budgetary and 
policy proposals paint a troubling picture for the future of 
our water resources and our Nation's economy.
    I look forward to further exploring these issues later in 
this hearing. Again, I would like to welcome our witnesses to 
the subcommittee.
    Secretary Darcy, please ensure that questions for the 
record and any supporting information requested by the 
subcommittee are delivered in final form to us no later than 
four weeks from the time you receive them. Members who have 
additional questions for the record will have until the close 
of business Friday to provide them to the subcommittee's 
office.
    With that, I will turn to Ms. Kaptur for her opening 
comments.
    Ms. Kaptur. Thank you, Mr. Chairman, and I thank the 
chairman of our full committee, Mr. Rogers, for joining us 
today, and the former chair of this subcommittee, Mr. 
Frelinghuysen.
    Assistant Secretary Darcy, General Bostick, General 
Peabody, Mr. Mazzanti, we appreciate your appearance before us 
today. We are here to help you.
    I, for one, look forward to this hearing on an issue of 
very keen interest to me, and that is the stewardship of our 
Nation's very precious freshwater resources.
    Over the last few years, the western part of our country 
has endured and been ravaged by drought. It looks as though 
those trends are continuing. Meanwhile, the freshwater region 
that I represent, the most important in the entire world, has 
fallen victim to troubling mismanagement, and the water system 
of a major city in this country was shut off for three days. I 
have never experienced anything quite like that before.
    The Corps of Engineers has an important role to play in 
building a water secure future for our country. We are all 
eager to hear about your progress in adapting innovative 
approaches to make your mission a reality.
    As we grow our economy, the Corps also provides a great 
opportunity for job creation. Federal support of water resource 
projects creates construction jobs and indirect economic 
benefits that encourage local businesses and individuals to 
make critical investments in their own communities.
    Unfortunately, this budget request continues the trend 
toward disinvestment. Last year, Congress overwhelmingly 
supported nearly a billion dollar increase for the Corps, as 
you well know. With the return of sequestered budget caps, I am 
worried about the negative effects to our infrastructure absent 
another congressional intervention, and I guess that is why we 
are all here.
    Additionally, the passage last year of a new Water 
Resources Development Act has significant implications for the 
Corps. I am interested to learn more about plans to implement 
these provisions, including new funding mechanisms, invasive 
species control, and language relevant to our Great Lakes.
    That bill was to also address the Corps' massive backlog, 
currently estimated at $60 billion by some, and I understand 
that a full accounting of those projects is being developed, 
and I hope that you will share some of the emerging details 
with our committee today.
    Finally, as a Great Lakes' legislator, I would ask you to 
address seriously widely held concerns about the invasion of 
the Asian Carp, Great Lakes' dredging needs, and a broader 
environmental awareness of the largest freshwater system on the 
face of the earth. That currently seems to be lacking in some 
of the presentations that we have seen, especially in light of 
the water crisis I reference in Toledo last August.
    There is a need for innovative thinking. We know Great 
Lakes' ports are critical to the regional and national 
economies supporting our critical manufacturing base, among 
others, and we must keep these ports open for business.
    However, this need not come at the expense of water 
security, the safety and quality of our drinking water, or the 
environmental integrity of that precious ecosystem.
    We know we will be helped during this session of Congress 
by the addition of two very important members to our 
subcommittee, and I want to officially welcome them today, both 
from the State of California, a state that has its own share of 
current challenges, which I know they will enlighten us on.
    Congressman Mike Honda, as well as Congresswoman Lucille 
Roybal-Allard. She has other subcommittees that she has to 
attend to as the new ranking on Homeland Security, and we very 
much appreciate her attendance here today, and our very able 
colleague, Mr. Honda, as well. Welcome.
    Mr. Simpson. Thank you. It is now my honor to turn to the 
full committee chairman, the Honorable Harold Rogers.
    Mr. Rogers. Mr. Chairman, thank you for yielding the time. 
Secretary Darcy, Generals, Mark, welcome. We appreciate you 
being here.
    This is the first hearing of this subcommittee. In fact, it 
is the first hearing of the entire committee, so you get the 
blue ribbon.
    Mr. Simpson. We like hearings.
    Mr. Rogers. I am hopeful that this subcommittee can 
continue its track record of working collaboratively under 
regular order, to draft thoughtful and responsible bills to 
fund our Federal Government.
    The Corps certainly has a diverse set of projects to 
manage, from lakes, to rivers, to dams, each with their own 
unique challenges. I continue to be impressed with the talented 
people at the Corps who engineer these projects that stand the 
test of time and weather and other problems.
    These projects are critical to the national economy. I have 
always appreciated the collaborative nature of our partnership 
with the Corps in planning their work and working their plan.
    With such significant potential for economic impact, it is 
important that we get things right in the budget and set the 
right priorities for these projects.
    In my district in Kentucky, Southeast Kentucky, the Corps 
has protected communities from the threat of constant flooding, 
enabled the next generation with reliable hydropower, created 
numerous recreational opportunities on rivers, lakes, 
campgrounds for residents and visitors, in addition to managing 
one of the most complex and expensive water resources' 
infrastructure project in the history of Wolf Creek Dam on the 
Cumberland River.
    The Corps has supported numerous communities in a smaller 
scale flood mitigation series of efforts. Recently, you have 
turned your attention to the town of Martin, Kentucky, again, 
which was subjected to years and years of almost perineal 
catastrophic floods, and has suffered tremendous loss of 
livelihood and property as a result.
    We look forward to working with you more as you move 
critical town structures to higher and drier ground.
    I appreciate your partnership with the towns as they 
struggle with survival. This is an existing problem with them. 
Without a doubt, because of your efforts and expertise, these 
communities are much safer and more secure.
    When I took office in January of 1981, I asked the Corps to 
take us on a helicopter the length of the Cumberland River, 
which is a mountainous part of my district, to look at the 
places where if you had the money, you could stop the perineal 
flooding of all those towns, and you did.
    We joined you in the effort, and you constructed levees 
and/or cut throughs or other tunnels and the like to prevent 
flooding of those towns.
    I can tell you and remind you, not a single one of those 
cities that you did that work on has flooded since then, some 
30 plus years. You have saved lives and you have saved churches 
and homes and Bibles and keepsakes and whatever by the work 
that you do.
    While the Corps is getting a lot right, there are some 
concerns with regard to the execution of your mission and its 
adherence to the direction of Congress. One primary issue is 
the Corps' commitment to its recreation mandate.
    Lake Cumberland in my district is a perfect example. The 
Corps has been reticent to embrace opportunities for recreation 
on that lake, despite clear direction in the most recent bill 
passed by Congress, and I will be working with you and talking 
to you about that as we go along.
    Even greater concern is the manner in which the Corps is 
choosing to execute its regulatory authority. The regulations 
promulgated and enforced through the Corps have a tremendous 
impact on jobs and the economy, and we are feeling this in my 
district.
    We have been witnessing the Administration's relentless 
attack on coal jobs for years. Each new regulation imposed on 
this industry is making life more difficult and uncertain for 
the people in my region.
    So far, we have had 9,000 coal miners laid off in the last 
few years, a lot of it due to reaching beyond the authority 
given to the executive agencies. Those who depend on the coal 
industry for work and for reliable energy are seeing jobs 
disappear, their energy bills continuing to rise, and with each 
new instance of bureaucratic overreach in this war on coal, we 
see businesses close, and more Americans struggling to find 
work.
    I talk to families every day. A man in his 30s or 40s, able 
bodied, has a family with small kids, laid off, trying to find 
a job at McDonald's or what have you, most of the time, 
unsuccessfully. So, they have no choice but to leave and take 
their family with them. There goes more of the economy as more 
and more businesses close.
    It is time for bureaucrats to lay aside their personal 
animus toward the coal industry and allow for a true all of the 
above energy strategy for the country.
    In the same vein, I continue to be dismayed at the efforts 
of the Corps and EPA to write new rules defining ``waters of 
the United States.'' If that goes into effect, these new rules 
will place stringent standards on thousands of miles of streams 
across the country, some of which only flow seasonally after 
heavy rains. They just are not navigable streams, unless you 
are writing cartoons for Disney.
    Every hollow and valley in Kentucky has a stream running 
through it. Some of them are dry streams. Over regulating each 
of them will only further distress economic activity in the 
region. That means road construction, coal mining, any other 
activity that takes place near these newly defined navigable 
waters will only take place with the say so of a Federal 
bureaucrat after a hearing in Washington, D.C.
    These new regulations will strangle economic development in 
Appalachia and any other part of the country, and place yet 
another layer of red tape on job creating projects and 
businesses across the country.
    Just the threat of this regulation is causing many people 
who are thinking of developing a shopping center or a farmer 
wanting to build a culvert to get to a field or what have you, 
or a standing body of water that has no connection to any 
stream anywhere. It is already causing a lot of activity never 
to take place.
    That is not the way for the Federal Government to operate. 
That is not the way we were invented. That is not the way we 
were designed. It is not the way we are motivated. Yet, we see 
this absolute profound reach to control everything from 
Washington, and we are here to tell you it ain't going to work.
    These issues are vital for the people of my district, for 
other coal producing regions across the country, and for our 
national economy. I hope that you will touch on these and other 
important issues in your remarks so we can better understand 
how the Corps plans to address these challenges to better our 
country.
    Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. Ms. Darcy.
    Ms. Darcy. Thank you, Chairman Simpson and distinguished 
members of the subcommittee. Thank you for the opportunity 
today to present the President's budget for the Civil Works 
Program of the Army Corps of Engineers for 2016.
    This year's Civil Works budget reflects the 
Administration's priorities through targeted investments in the 
Nation's water resources infrastructure, including dams and 
levees, navigation, and the restoration of ecosystems.
    It supports the Civil Works Program that relies on a 
foundation of strong relationships between the Corps and our 
local communities, which allows us to work together to meet 
their water resources' needs.
    The budget also helps us in our efforts to promote the 
resilience of our communities to respond to the impacts of 
climate change. We are investing in research and planning, in 
vulnerability assessments and pilot projects, and evaluations 
of the value and performance of non-structural and natural 
based features to help us maintain, as well as improve, our 
efforts on sustainability.
    For example, we are reducing the Corps' carbon footprint by 
increasing renewable electricity consumption, by reducing 
greenhouse gas emissions, and by reducing our non-tactical 
vehicle petroleum consumption.
    We are also advancing our sustainability efforts by using 
innovative financing techniques, such as the energy savings 
performance contracts. We are making important investments to 
promote the sustainable management of the lands around our 
Corps facilities by providing funds to update the plans that 
govern how we manage our facilities and to help combat invasive 
species.
    The budget also focuses on maintaining the water resources 
infrastructure that the Corps owns and manages and in finding 
innovative ways to rehabilitate it, hand it over to others, or 
retire it.
    Here are some funding highlights. The 2016 Civil Works' 
budget provides $4.7 billion in gross discretionary 
appropriations for the Army Civil Works Program, focusing on 
investments that will help provide economic and environmental 
returns or address a significant risk to public safety.
    The budget focuses funding on our three major mission 
areas, allocating 41 percent to commercial navigation, 27 
percent to flood and storm damage reduction projects, and nine 
percent to aquatic ecosystem restoration.
    Other effective and sound investments include allocating 
five percent of the budget to hydropower, two percent to the 
clean up of the sites contaminated during the early years of 
the Nation's Nuclear Weapons Program, and four percent to 
regulatory activities.
    Overall, the budget funds 57 construction projects, nine of 
them to completion. It also funds 54 feasibility studies, 13 of 
those to completion. The budget also includes four new 
construction starts, two of which the Corps will complete in 
one year.
    The budget funds inland waterways' capital investments at 
$974 million, of which $53 million will be derived from the 
Inland Waterway Trust Fund.
    The budget provides $915 million from the Harbor 
Maintenance Trust Fund to maintain coastal channels and related 
work, matching the highest amount ever budgeted.
    Forty-four million is provided for a comprehensive levee 
safety initiative that will help ensure that all Federal levees 
are safe and in line with the Federal Emergency Management 
Administration's standards. This initiative will provide non-
Federal entities with access to levee data that will help 
inform them of the safety issues.
    The budget supports a Corps program that has a diverse set 
of tools and approaches to working with local communities, 
whether this means funding projects with our cost sharing 
partners or providing technical assistance and planning 
assistance expertise to help communities make better informed 
decisions.
    This year, the President's Civil Works budget provides $31 
million for the Corps to provide local communities with 
technical and planning assistance to help them develop and 
implement non-structural approaches to improve their resilience 
to the impacts of climate change.
    The Corps continues to contribute to the Nation's 
environmental restoration and the budget provides funding to 
restore several large ecosystems that have been a focus of 
interagency collaboration, including the California Bay Delta, 
Chesapeake Bay, the Everglades, the Great Lakes, and the Gulf 
Coast.
    Other funded Corps efforts include the Columbia River, some 
portions of Puget Sound, and priority work in the Upper 
Mississippi and Missouri Rivers.
    Finally, the budget provides $6 million for the Corps' 
Veterans Curation Program, which was started in 2009 with 
support from the American Recovery and Reinvestment Act. This 
program offers veterans the opportunity to learn tangible work 
skills and gain experience by rehabilitating and preserving 
federally owned or administered archaeological collections 
found at Corps of Engineers' projects.
    I thank you all for your attention, and I look forward to 
working with the committee as we move this budget forward.
    Mr. Simpson. Thank you. General Bostick.
    General Bostick. Good morning, Mr. Chairman and members of 
the subcommittee. I am honored to testify before your committee 
today along with the Honorable Jo-Ellen Darcy on the 
President's fiscal year 2016 Civil Works Program of the United 
States Army Corps of Engineers.
    This is my third time to testify before this subcommittee 
on the Civil Works' budget. Thank you for your support in the 
past, and I look forward to continuing our work together in the 
future.
    I have been in command for nearly three years, and I would 
like to provide a brief update on our four campaign goals. 
First, support to national security. The Corps supports the 
national security of the United States.
    We continue to work in more than 110 countries using our 
Civil Works, military missions, water resources, and research 
and development expertise to support our Nation's combatant 
commanders.
    Army Corps employees, both civilian and military, from all 
across the Nation have volunteered, and continue to volunteer, 
to provide critical support to our military and the 
humanitarian missions abroad.
    Second, transform Civil Works. Civil Works transformation 
focuses on four key areas. First, modernizing the project 
planning process. Second, enhancing the budget development 
process through a systems oriented approach that includes 
collaboration.
    Third, developing an infrastructure strategy to evaluate 
the current inventory of projects to help us identify 
priorities and develop better solutions to water resources 
challenges. Fourth, improving methods of delivery, to produce 
and deliver sound decisions, products and services that will 
improve the ways in which we manage and use our water 
resources.
    Since the inception of Civil Works transformation in 2008, 
42 Chief's reports have been completed. During this seven-year 
period, 13 Chief's reports were completed in the first four 
years, and 29 Chief's reports were completed in the last 
three--clear evidence that we are learning and becoming a much 
more efficient organization in our processes.
    In our third campaign plan goal, we must continue to be 
proactive and develop improved strategies to reduce disaster 
risk, as well as respond to natural disasters when they do 
occur. I continue to be very impressed at the work of the Army 
Corps of Engineers in this particular area.
    One great example of this proficiency is the Hurricane 
Sandy recovery work. The flood control and coastal emergency 
program is over 95 percent complete. The Sandy operations and 
maintenance program is over 70 percent complete and on schedule 
to be 100 percent by the end of 2016. And I am pleased to 
highlight that the Army submitted the North Atlantic Coast 
Comprehensive Study on schedule to Congress and the American 
public on 28 January 2015.
    Our fourth campaign goal is to prepare for tomorrow--this 
is all about our people--to ensure that we have a pipeline of 
talented military and civilian teammates as well as a strong 
workforce development program and a talent management program. 
Equally important is helping our nation's wounded warriors and 
soldiers as they transition out of active duty to find 
fulfilling careers. Last year we set a goal of assisting 125 
soldiers transitioning out of the military; all of these were 
wounded warriors. We exceeded that goal by more than 50 
percent. Nearly 200 wounded warriors found permanent positions 
within the Corps or other organizations across America.
    We are also focused on research and development efforts 
that will help solve some of the nation's toughest challenges. 
Chairman, I ask you and other members to refer to my complete 
written testimony submitted to the Committee for the fiscal 
year 2016 budget specifics. I thank you for this opportunity 
and look forward to your questions.
    Mr. Simpson. Thank you, both of you, for your testimony and 
thank you for being here today. I want you to know first of all 
that I think everyone on this Committee and everyone that I am 
aware of both respects and admires the work that you do for 
this country. The Army Corps does some vital work to the 
infrastructure, particularly the water infrastructure, of this 
country that is important. But as you could tell from the 
opening comments of Chairman Rogers and myself and Ranking 
Member Kaptur, we have some questions and sometimes we have 
some disagreements about various provisions. Let me get into a 
couple of those.
    First of all, let me ask about the fiscal year 2015 work 
plan, the unallocated funds. In fiscal year 2015, the work plan 
sent up last week did not include allocation of all additional 
funding provided in the 2015 act. In fact, 42 percent of the 
additional investigations funding and 23 percent of the 
additional construction funding was left unallocated. We hear 
from local sponsors and other stakeholders all the time that 
these investments are necessary, so why were any funds, but 
particularly such large amounts, left unallocated and what is 
the plan and schedule for allocating the remaining funding?
    Ms. Darcy. Thank you, Congressman Simpson. I think it is 
$141 million that was unallocated in the 2015 work plan. We are 
in the process of continuing to find places to allocate those 
funds. We are trying to do it as quickly as possible. We did 
submit the work plan with the budget so that folks could 
compare the two, and the work plan was actually due up here 
next Monday. We are continuing to look at those unobligated 
balances and hope that we will be able to get those allocated 
as soon as possible. We have some outstanding projects that 
came in late, so we are looking at those and hopefully we can 
get that done as soon as possible.
    Mr. Simpson. Does that mean that if, say, this year we were 
to appropriate money beyond what the President's budget 
requested that you are so caught up that you would not have any 
way to spend those funds or it would be difficult to find a 
place to spend those funds?
    Ms. Darcy. I would say no, sir, but with the additional 
unallocated funds that we did not plan for in the President's 
budget, it is a challenge, but it is a welcome challenge. If 
there is a work plan next year, then we will have two years 
under our belt for having provided this.
    Mr. Simpson. Well, I appreciate that and it has to be 
fairly obvious to the administration that Congress places a 
different priority on the work of the Army Corps than what he 
does in his budget requests when we have added--I guess if you 
add over the last couple of years, $1.5 billion more than was 
requested. In fact, last year when they cut $900 million out of 
the Army Corps from the year before, we added it back plus 
about $25 million and that still was not enough on the floor. 
There were amendments adopted that added more into the Corps to 
address some of these problems. I guess every member of 
Congress has an Army Corps project in their district that is 
important to them and important to the country, frankly. So I 
understand how this works, having laws to work both at the 
state level and here at the federal level, is that oftentimes 
it is easy for an administration, Republican or Democrat, when 
they are preparing a budget, to cut back on those areas that 
they know Congress is going to fill in; that it is important to 
members of Congress so that they have more money to actually 
spend on priorities that they would like to spend money on and 
then we end up having to backfill it, the allocation. When you 
look at the budget this year, the President has requested $1.8 
billion above last year's and yet the Army Corps is down. Now, 
chances are our allocation is going to be substantially less 
than what the President's budget requested. So we have that 
$1.8 billion, plus we have $750 million we are going to have to 
fill back in with the Army Corps of Engineers. It is going to 
be substantially hard to do this and keep backfilling the 
budget that the President requests.
    The budget request cuts funding for harbor maintenance 
activities by $192 million. While you said it was the largest 
budget request that an administration had made, it is not the 
largest appropriation that has been made. We have substantially 
increased appropriations above what the President requested in 
that arena. But it cuts harbor maintenance activities $192 
million for the current year. The request is $385 million below 
the target set by last year's Water Resources Development Act 
or WRRDA.
    Secretary Darcy, does the administration believe that our 
coastal and inland harbors are important to the American 
economy and, if so, why is that importance not reflected in the 
budget request? Do you anticipate the administration making any 
attempt to meet the Harbor Maintenance Trust Fund targets in 
WRRDA, the water bill, in the future?
    Ms. Darcy. Congressman, harbors are very important to this 
Administration and as I said, the $950 million in the Harbor 
Maintenance Trust Fund that the President is requesting this 
year is the highest that the Administration has ever requested. 
We do believe that we are hopefully on track and looking 
forward to complying with the provisions in WRRDA. But that 
said, there are competing requirements for us within the budget 
process not only within the Corps of Engineers but the 
President's budget overall.
    Mr. Simpson. It must be unique to come up here and testify 
before Congress and have a Committee saying you are not 
spending enough money. Other agencies that come up here have 
kind of the opposite reaction from members of Congress, but 
this is an area that we are obviously going to look at very 
seriously. Actually at the level that the Army Corps has 
requested funding and that the administration requests the 
funding for the Army Corps, I do not think we could pass a bill 
on the floor at that level because there are too many members 
that have an interest in the important work that you do. But 
thank you for being here today. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman, very much. Secretary 
Darcy, the January Jobs Report was the eleventh consecutive 
month of job growth above 200,000 in our country, the first 
time that that has happened since the mid-1990s. Yet even with 
this growth, the unemployment rate in the construction field 
has been hovering around 10 percent, according to the Bureau of 
Labor Statistics. The Council of Economic Advisers estimates 
that for every billion dollars of federal funding in transit 
investment in the highway funds, we create about 13,000 jobs 
for a year.
    So I am going to ask you kind of a hard question and that 
is in terms of the Corps and the construction projects that you 
do, do you have an estimate of the job impact of Corps of 
Engineers' funding and how that ripples through our economy in 
terms of job creation?
    Ms. Darcy. We have done some modeling on trying to make 
that calculation, similar to the number that you hear in the 
transportation industry, one that is relevant to water 
projects. What our modeling shows is that about 20,000 jobs are 
created for every billion dollars' worth of expenditure.
    General Bostick. That is 10,000 full-time direct jobs and 
20,000 when you look overall. So it is 20,000.
    Ms. Kaptur. The jobs connected to the primary jobs, you are 
saying, 10,000?
    General Bostick. Direct jobs are about 10,000.
    Ms. Kaptur. For each billion?
    General Bostick. For each billion, overall 20,000 when you 
consider the indirect jobs.
    Ms. Kaptur. Okay, those are very important numbers. 
Congress includes jobs as a criterion for the allocation of 
additional funds that have been provided to the Corps over the 
last several years. What else could the Corps or the Congress 
be doing to maximize the job impact of our energy- and water-
related investments over which you have jurisdiction?
    General Bostick. Ma'am, I would say there are a number of 
things that we do. Some of them are intermittent jobs for 
construction, for example, and each time we have a major 
construction program that may come with a lot of jobs. So if it 
is a long-term effort like Olmsted, then you are going to see 
full-time jobs for a longer period of time.
    If you look along the Mississippi, for example, there are a 
lot of jobs that are dependent--and a lot of businesses that 
are dependent--on the efficient dredging of the Mississippi so 
that barge traffic can go up and down the Mississippi, and the 
businesses that rely on it can use it. And the greater that 
capacity, I think the more population and more businesses would 
develop and benefit from it. There are some estimates that say 
around 800,000 people along the Mississippi River benefit from 
the work that we do and they depend, and their livelihood 
depends, on the efficient flow of the river.
    Ms. Kaptur. Thank you, General.
    Secretary Darcy, we often hear that the Corps of Engineers' 
construction backlog is somewhere in the neighborhood of $60 
billion. For a program that the administration only requests 
slightly higher than $1 billion and for which the Congress 
appropriates somewhere around $2 billion, the $60 billion 
figure seems daunting, if not somewhat surreal. Our staff's own 
work shows that if you just count the ongoing projects, there 
is something like $31 billion remaining on the authorization 
level.
    What are you doing as Corps to get a handle on the 
authorized projects that are still relevant and is there a way 
of you mapping by district or region, Congressional district or 
region, the funding levels associated with the projects yet to 
be completed?
    Ms. Darcy. Congresswoman Kaptur, there was a provision put 
in WRRDA 2014 that passed last June that requires the Corps to 
look at just that, and in doing so requires us to identify $18 
billion worth of projects that we would think to be 
deauthorized.
    As part of that deauthorization exercise to meet that 
requirement, we are looking at what exactly is out there and 
how big is that backlog. We are not sure if $60 billion is the 
right number. It could be more than that. And in recognizing 
that, then we need to look at what projects are those that 
would qualify for or be recommended for deauthorization. 
Looking back through the entire portfolio probably takes 
overtime.
    Ms. Kaptur. Do you have any idea at what point you might be 
able to produce that report?
    Ms. Darcy. It is required to be delivered in September of 
this year.
    Ms. Kaptur. Okay. Let me ask a question about dredging, 
following on the Chairman's question. Can you give us an idea 
of the backlog for authorized Corps projects, specifically for 
the Great Lakes? Will that be in the September report?
    Ms. Darcy. For all projects or for just dredging, ma'am?
    Ms. Kaptur. For all projects, but then dredging as a subset 
of that.
    Ms. Darcy. I think we can produce it for the dredging 
projects.
    Ms. Kaptur. For the dredging projects, okay. As you know, 
the open lake disposal issue is a very hot issue, certainly in 
the Lake Erie area. My question is, can you provide for the 
record for the Cleveland Harbor the difference in cost between 
open lake disposal and alternative disposal that would be for 
beneficial reuse or a confined alternative? Are you able to do 
that?
    Ms. Darcy. Yes, we can.
    Ms. Kaptur. Do you have any idea at this point what that 
might be?
    Ms. Darcy. I do not have the number off the top of my head. 
I do not know if you do, General?
    General Peabody. It is below $5 million, ma'am. I cannot 
give you a precise figure. It is probably considerably below 
that, but we would have to follow up.
    Ms. Kaptur. All right. I thank you, General, for that 
clarification. Mr. Chairman, I am just going to ask for consent 
to put in the record a report that talks about the Harbor 
Maintenance Trust Fund and the fact that there is a rolling 
balance in that fund of--and it is going up--$8.3 billion in 
2014, $8.9 billion in 2015. It is estimated in 2016 to be $9.9 
billion, and you look at commerce in a region such as I 
represent and we are questioning why we cannot get this done.
    So I will be very, very interested in your recommendations 
for alternatives to deal with that dredge material, 
specifically in the harbors on Lake Erie, and I will have more 
questions in the follow-on period. Thank you, Mr. Chairman. 
Thank you, witnesses.
    Mr. Simpson. Mr. Rogers.
    Mr. Rogers. This year's budget request reduces construction 
funding by almost a $.5 billion from the fiscal year 2015 
enacted level. That is 28 percent of the entire account. How 
many projects could use funding in fiscal year 2016, but are 
not included in that budget request?
    Ms. Darcy. How many could use funding, sir?
    Mr. Simpson. Could you pull the microphone a little bit 
closer? Yes, perfect.
    Mr. Rogers. How many projects could use funding in fiscal 
year 2016, but are not included in the budget request?
    Ms. Darcy. I do not have that number, but maybe we can get 
it for you.
    Mr. Mazzanti. Mr. Chairman, there are 41 projects that were 
included in the work plan that are not in the 2016 budget.
    Mr. Rogers. And how many are included?
    Mr. Mazzanti. As far as construction projects?
    Mr. Rogers. Yes.
    Mr. Mazzanti. There are 57 total projects included in the 
2016 budget. The challenge for us is there are a number of 
factors that affect the requirements of projects as far as 
which projects could use funding, including sponsor financing, 
necessary acquisition of rights of way, the availability of 
funding for priority. And so to come up with a specific number 
is very challenging for us to relay.
    Mr. Rogers. How many of these projects will be shut down or 
have progress slowed unnecessarily due to lack of continued 
funding?
    Mr. Mazzanti. Again, Mr. Chairman, it is very challenging 
for us to try and look at the reason for any slowdown or 
shutdown due to the level of construction funding. But for this 
particular budget, we are not aware of any projects that will 
be shut down.
    Mr. Rogers. Will any of these projects incur contractor 
demobilization costs or other costs associated with being 
halted?
    Mr. Mazzanti. I will have to follow up with you, sir. I am 
not aware of any.
    Mr. Rogers. We were told previously that deferred 
maintenance on existing federal projects had increased from 
$884 million in 2003 to nearly $3.0 billion in fiscal year 
2012. That increase occurred even as the operation and 
maintenance budget was increasing each year and after taking 
into account the $4.6 billion provided in the Recovery Act in 
2009. What is the updated estimate of deferred maintenance?
    General Bostick. It is still about $3 billion, but I would 
say we still have a lot of work to do to gain fidelity on those 
numbers. Our infrastructure strategy seeks to really get a 
handle on all of the projects that are out there, their current 
status, including the deferred maintenance.
    I think the point you raise, Mr. Chairman, leads to a 
bigger point of the aging infrastructure in this country. 
Despite continued funding to try to support that aging 
infrastructure, much of it is beyond its economic design life 
of 50 years. I am sure you saw the American Society of Civil 
Engineers rating of the infrastructure at a D+. So we are in a 
constant battle to maintain and operate the infrastructure that 
we have.
    General Peabody. Mr. Chairman, related to the Chief's point 
about our infrastructure strategy, one of the reasons why using 
that current number may not adequately convey the reality is 
because we believe that we can be more efficient in the use of 
the funds that you appropriate to us.
    We have a detailed study ongoing right now in six of our 
districts in the Upper Mississippi and the Ohio Valley to look 
at our flood risk management and navigation programs and get an 
initial assessment of some changes we might make in the way we 
operate and how we organize so that we can optimize the 
efficient execution of those funds.
    So while I would say that the current estimate of $3 
billion is our best estimate to date, I am not confident that 
we could not better use the money. We have a lot more analysis 
to do to give ourselves and this committee a better 
understanding of the deferred maintenance impact.
    Mr. Rogers. What would be the impact on the maintenance 
backlog if we do the 2016 budget request that you have asked 
for? How would that impact the backlog?
    General Bostick. It is difficult to say at this point. We 
are going to have a better handle on the assets that we have, 
and the backlog amount later this year when we finish this 
comprehensive report. But at this point, trying to correlate 
the budget to increase deferred maintenance is difficult.
    The other part of what you have helped us with is the 
ability to divest of $18 billion worth of projects. Part of our 
strategy is also to look at what we have, and what is it that 
continues to serve the authorized purpose. What is it that has 
a purpose that no longer meets the authorized purpose, and we 
have to divest of, and what has to be repurposed in a way that 
we continue--or the states continue--to maintain it. That would 
help with the deferred maintenance as well.
    Mr. Rogers. Last year the Corps and EPA proposed that joint 
rule defining waters of the U.S. that I talked about earlier, 
which governs federal jurisdiction under the Clean Water Act. 
Where are we on that proposal?
    Ms. Darcy. We are currently reviewing all of the public 
comments. We had a public comment period that ended in 
November. We received almost a million comments on the proposed 
rule, and we are going through those comments to determine the 
impact on how we will do a final rule. We are hoping to propose 
a final rule as soon as we can. We are looking at trying to 
have it done by the summer.
    Mr. Rogers. By when?
    Ms. Darcy. By the summer.
    Mr. Rogers. 800,000 to a million responses?
    Ms. Darcy. Yes, sir.
    Mr. Rogers. And what was the general consensus of the 
response?
    Ms. Darcy. Of the comments about 37 percent were in favor 
of the rule, about 58 percent were not, and there are another 8 
percent that were neutral. I think we could characterize it 
that way.
    Mr. Rogers. Well, majority rules in this country, right? 
Thank you Mr. Chairman.
    Mr. Simpson. Thank you. Mr. Honda.
    Mr. Honda. Well, thank you very much and appreciate being 
one of the newer members of this committee, and look forward to 
a lot of good work here.
    Madame Secretary, I would like to start with the Lower 
Berryessa Creek project in my district. The Santa Clara Valley 
water district is undertaking the design and construction of 
the Lower Berryessa Creek project using dedicated, local 
funding. And this project is located immediately downstream 
from the Upper Berryessa Creek project which is currently under 
design by the Corps, and for which the President's budget 
request recommends $12.7 million.
    Both projects need to be completed to provide the 100 year 
flood protection to the new Milpitas Bay Area rapid transit 
station which is currently planned to be operational by the end 
of 2017.
    Building the BART extension to Silicon Valley has been one 
of my biggest priorities since I got to Congress. Both 
Berryessa Creek projects are on track except for the fact that 
the water district has not yet received a Section 404 permit 
from the Corps. They have completed construction documents for 
phase 1 of the Lower Berryessa Creek project, and obtained all 
the other regulatory permits. They are planning to advertise 
for construction in March pending a receipt of the 404 permit.
    They submitted permit applications in early 2012, and were 
told that they would be forthcoming in October of 2014. I know 
there are staffing changes, but from the Water District's 
perspective several months have gone by with no progress on 
what is listed as their number one priority.
    Not receiving the 404 permit in time to advertise for 
construction this spring will have significant impacts on the 
project. Cost increases that the local agency cannot afford, 
and missing the 2015 construction season, which would delay the 
completion of this work by a year.
    Now, this has an impact on the construction of the BART 
station. If the project is delayed the Valley Transportation 
Authority will have to include mitigation measures they 
otherwise would not need, and waste hundreds of thousands of 
dollars of scarce tax payer funds. Since these measures will 
not be needed once the Lower Berryessa project is finally 
built, so can you tell me about the expected timing for the 
issuance of the permit for this project?
    Ms. Darcy. Congressman, I believe we are anticipating a 
decision by April of this year.
    Mr. Honda. Okay. So I think the timing then going beyond 
April would be pretty devastating to our timeline, so are there 
any communications that will be forthcoming that will give some 
relief for our folks in my district that the check is in the 
mail?
    Ms. Darcy. This is a permit application, I believe, so I 
think we are on track to make the decision by April of this 
year for the permit you are referring to----
    Mr. Honda. Okay.
    Ms. Darcy [continuing]. For Lower Berryessa.
    Mr. Honda. So when you are saying that are you saying that 
it is a positive decision? That it will be forthcoming?
    Ms. Darcy. I would have to defer to the district. I do not 
know the details.
    General Bostick. We can ensure that the district 
communicates with the local leaders and gives the latest 
update, but the update that we are currently tracking is April 
of 2015.
    Mr. Honda. Okay. I thought that this might be just a 
procedural kind of thing waiting for the permit. I am sensing 
that there may be a situation where it may not be granted? Is 
that what I am feeling? If they met all specifications?
    General Bostick. At this point we really cannot say whether 
it is going to be approved or disapproved, so we are not trying 
to give an indication that it would not be approved.
    Mr. Honda. Okay.
    General Bostick. Just that----
    Mr. Honda. So----
    General Bostick [continuing]. It is in the process of 
making the decision.
    Mr. Honda. So we will keep in close contact, look at April?
    General Bostick. Yes.
    Mr. Honda. Mr. Chairman, I have a couple questions on the 
South Bay Salt Pond restoration, if I may? I would like to ask 
about the timing of the South Bay Salt Pond restoration 
project. The Corps estimated that it needed $1 million to stay 
on schedule in the fiscal year 2015.
    But local sponsors have contributed to contributing half of 
that, $500,000 to make up the lower partner contribution, but 
the Corps estimates that with the current local funding only 
they will run out of funding this spring. Hopefully, making the 
agency decision milestone on April 21, another April deadline 
here.
    This delay was mostly caused by an eight month delay to 
address the Corps Head Quarter's concern on sea level rise, and 
all integration of smart planning milestones. Response to those 
concerns, delayed project, and spending most of the remaining 
fund Corps had received. Without additional funding it seems 
like the Corps will not make the chief's report deadline of 
December 15. How are you going to keep up the schedule for this 
project from slipping even further? Do you have any idea?
    Ms. Darcy. Congressman, we are looking at the possibility 
of using some unallocated FY15 work plan money to meet the need 
for this project, and to meet the deadline that we have 
committed to.
    Mr. Honda. That's reassuring, thank you. It is a little bit 
better than the last one. One other question pertaining to 
South Bay Salt Pond restoration. It is brought to my attention 
that there is some disagreement between local interests and the 
Corp about the proposed alignment in the draft environment 
impact statement, revealed the South Bay Shoreline study.
    The alignment of the levee in question could limit options 
that would otherwise be available to the City of San Jose as it 
works in its master plan for its regional water treatment 
facility. It is my understanding that there are options for 
levy alignment that could provide substantial fluvial flood 
control and habitat expansion benefits, but the Corp's plan 
could cut those options off, which the City of San Jose 
officials are concerned about. Are you working with the City of 
San Jose's officials on the development of the preferred 
alternative right now?
    General Bostick. Yes. We are working very closely with the 
local officials. In fact, John Peabody is going to be out there 
next week looking at a number of these types of issues, but 
this project in particular.
    Mr. Honda. Okay. Great. Then hopefully at that time can be 
discussing modifications that would not obstruct San Jose's 
options, so I will look forward to that meeting. Thank you, Mr. 
Chairman.
    Mr. Simpson. Thank you.
    Mr. Honda. I will wait for the next round.
    Mr. Simpson. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. I was thinking 
to myself and whispering to Mr. Calvert this is the quietest 
most subdued hearing we have ever had. So I either give you my 
compliments or wonder why it is so quiet, and perhaps I will 
liven it up a little bit. Madame Secretary, it is good to have 
you here. General Bostick and Peabody, Mr. Mazzanti thank you 
for being here.
    Let me, first of all, thank you, Madame Secretary, for your 
service. With those in uniforms for their service, and as was 
noted, General Bostick, in your comments, the work of the Army 
Corp is not just here at home. It is abroad, and you do some 
remarkable things. May I evoke a little bit of history. The 
things you do in the aftermath of September 11th, 2001 in the 
New York/New Jersey region to help us recover we do not forget 
those sacrifices. Let me acknowledge, too, the things you do to 
hire veterans. Everybody ought to be stepping up the plate. Our 
defense industrial base, but particularly, obviously, the Army 
Corp, and all of our departments.
    Let me also throw out a kudos to Mr. Simpson. It was an 
Idaho moment in the New York/New Jersey harbor when he came up 
to endorse the work that has been going on there for over 20 
years. I mean, talking about national security we need to keep 
our harbors open for business, and certainly our part of the 
country like the West Coast, the Mississippi and Ohio are 
important rivers, and you do some remarkable things.
    I would like to focus a little bit, and it was not without 
controversy that passed it, on the utilizations of the $5 
billion we gave you toward the Sandy recovery. I know you took 
some bows, and rightfully so, about the way the money is spent, 
but there are some things that still need your attention. Can 
you put a little more detail on the table for us?
    General Bostick. First, thanks for those kind remarks. 
Really, the credit goes to our people, both our soldiers and 
our civilians, and the sacrifices that their families make to 
ensure that we are providing the best support. Not only here in 
the United States, but abroad to meet the requirements of our 
national security.
    I think we have done a tremendous job in a number of these 
areas. I talked about the flood control and coastal 
emergencies, and how we are about 95 percent complete there. 
With the operations and maintenance funding, the South Atlantic 
Division had to do some work in their area, but they are 
completely finished. In the North Atlantic division, and in our 
Lakes and Rivers Division, they are about 70 percent complete. 
In December of 2016 they will be 100 percent complete.
    I talked about the study that we were able to release, the 
North Atlantic Coastal Comprehensive study.
    Mr. Frelinghuysen. I would like you to talk about that in a 
minute. I think you have completed 66 of 152 projects that are 
directly related to Sandy, and I was just wondering what the 
road forward, like, is? I am aware of the comprehensive study 
which, obviously, a lot of what we do here is balancing risk. I 
think that is the focus, primarily, of that study.
    We don't, obviously, want to if we can do it. We want to 
minimize the potential for future disasters. But I was just 
wondering if you could tell me how we are going to progress on 
some of these other projects that were on the project list?
    General Bostick. Right. The authorized but unconstructed 
projects, I think, those are some that you are talking about.
    We have expedited the reevaluations on----
    Mr. Frelinghuysen. Maybe you could just move the mic a 
little closer to your mouth.
    General Bostick. We have expedited the reevaluations on 19 
of those project areas, and we are currently underway with that 
work. We have completed 11 of those expedited evaluations. We 
have obligated about $400 million under those construction 
contracts already.
    On ongoing studies, the first completed Chief's Report was 
the Hereford Inlet to Cape May Inlet, New Jersey and that was 
signed on the 23rd of January. Studies are underway for the 
remaining 16 areas.
    Mr. Frelinghuysen. Well, I am glad you are making progress. 
Let me take my hat off to General Savre. He has been keeping me 
posted in most positive ways, so thank you, Mr. Chairman.
    Mr. Simpson. Thank you. Miss Roybal-Allard.
    Ms. Roybal-Allard. Okay. Thank you, Mr. Chairman, and it is 
a pleasure to be back on the committed. As you know, water is a 
very important issue to California.
    First of all, although it is an ongoing process I do want 
to say thank you for the efforts you are making to work on the 
Los Angeles River. It is a very exciting project, as you know.
    Lieutenant General Bostick, it is my understanding that the 
Corps of Engineers recently forwarded to Congress the annual 
report to Congress required by Section 7001. One of the things 
that disturbed me was to learn that despite the draught we are 
facing in the western states, water supply projects that 
otherwise met the criteria of Section 7001 were not certified 
as meeting the criteria. Because according to the Corp, they 
are not related to the missions and authorities of the Corp
    Why is the Section 219 program, which was authorized by 
Congress in the 1992 Water bill not considered to be an 
authority of the Corp of Engineers?
    Ms. Darcy. Congresswoman, regarding the report that you are 
referring to, which was required by WRRDA 2014, we just sent a 
copy up to the Hill on February 1st. When we did the 
solicitation that was required by the legislation, to publish 
in the Federal Register to solicit the input from stakeholders, 
we did just focus on the three major Corps mission areas: 
navigation, flood risk reduction, and aquatic ecosystem 
restoration.
    So the water supply related projects that came in from 
others were not considered--however, I think that we have 
learned from this first round that there is a great deal of 
interest in those other kinds of projects. I think that in the 
future we probably need to look more broadly because we just 
focused on those three mission areas.
    Ms. Roybal-Allard. Okay.
    Ms. Darcy. And as you say there are other mission areas 
within the Corps like recreation, water supply, hydro power. We 
focused on the three main mission areas.
    Ms. Roybal-Allard. Well, the recreation aside, I mean, 
California is in a crisis situation, and I am not sure that, 
you know, we have the luxury of waiting around for, you know, a 
year or two to address that. So I really would like to discuss 
with you some possibilities here.
    Like I said, we don't have the luxury of time when it comes 
to the crisis that we are facing right now in California with 
water shortage.
    Ms. Darcy. We will work with you on that.
    Ms. Roybal-Allard. Okay. The FY-16 budget summary mentions 
increasing investment in on the ground programs that help local 
communities better prepare for risks associated with climate 
change. One could argue that the very real risk of running out 
of safe water supply for our communities, is the issue we 
should be addressing. So how does the Army Corp plan to address 
the nation's dwindling water supply?
    Ms. Darcy. We have ongoing programs where we work with 
local communities to provide technical assistance through many 
of our programs, including technical assistance to states. We 
also are providing tools such as the tool that was developed as 
a result of the super storm Sandy to help people with the 
predictions of what the impacts of climate change will be on 
things like sea level rise and sea level change.
    Those tools are available, and we are developing others. We 
are doing vulnerability assessments in our coastal communities 
about what the future impacts of climate change will look like 
in 50 years or 100 years from now.
    Ms. Roybal-Allard. It is probably Spedus that we need to 
talk about as well.
    General Bostick. Ma'am, I was just going to say that the 
water control manuals dictate what the authorized purposes are 
for our reservoirs. Last year, as you know, we worked very 
closely with California to have some diversions that would 
allow for us to retain more water in Whittier Narrows, in Prado 
Dam, in order for water supply purposes. But we worked closely 
within those authorized purposes, and try to work with the 
local community to try to do the best we can to meet the 
multiple purposes that each demands.
    Ms. Roybal-Allard. In the recently enacted water Section 
1014, it establishes an authorization program for locally 
sponsored water infrastructure projects. Will the environment 
infrastructure projects such as water recycling and water 
storage projects be eligible to apply through Section 104, and 
if not why not?
    Ms. Darcy. I believe they are. I believe those kinds of 
projects are eligible to complete in that section, but I defer 
to the Corps.
    Ms. Roybal-Allard. Could you let me know for sure?
    Ms. Darcy. Yes, ma'am.
    Ms. Roybal-Allard. Okay, thank you. I yield back.
    Mr. Simpson. Thank you. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. I just wanted to 
thank you, sir. Again it is a privilege to serve on this 
Subcommittee. This is the second term, my third year, and I 
appreciate the full committee and the privilege to serve on 
this. Thank you very much.
    Secretary Darcy, General Bostick and General Peabody, Mr. 
Mazzanti, it is good to see you all today. This is the third 
opportunity I have had to discuss issues with you all. I 
represent the people of the Third District of Tennessee; I was 
elected in 2010. And I want to let you know that I listen. We 
ask questions, but I listen and we try to act on what we hear 
and I have been listening to you all the last two years and it 
is in that regard and in that spirit that I have got some 
questions and some comments.
    Madam Secretary, in 2014 the House and the Senate passed 
two key bills that made significant reforms to the way that we 
finance lock construction in this country. By overwhelming 
bipartisan margins we passed legislation that both reformed the 
Inland Waterway Trust Fund--as a matter of fact I was 
privileged to preside over that vote in the House--and also we 
got an increase in revenue. The industry supported user fee 
from $0.20 to $0.29. So we listened when we heard that the 
Trust Fund was broken and needed to be fixed. We listened when 
you all said that you needed additional revenue. And 
republicans, democrats, the House, the Senate, and the 
administration all I thought agreed that we were on the right 
course. Having said that based on my conversations that my 
staff has had with the Army Corps it is my understanding that 
in fiscal 2016 the Army Corps projects that the Inland Water 
Way Trust Fund will have revenues of about $107 million. Is 
that figure accurate?
    Ms. Darcy. Yes, sir.
    Mr. Fleischmann. Okay. So we have got the 107. Can you 
please tell me, Madam Secretary, how you took the $0.09 per 
gallon diesel fuel increase into account when making this 
determination and how much revenue does this fee increase add?
    Ms. Darcy. I think it is projected that the increase in the 
diesel tax will generate between $30-35 million a year.
    Mr. Fleischmann. Okay. Of that $107 million the fiscal '16 
budget request allocates $53 million from the Inland Waterway 
Trust Fund between the Olmsted Lock, which is first in line, 
and Lower Monongahela Lock which is second in line. What does 
the Corps plan, and this is probably my most important question 
I am going to ask you today, what does the Corps plan to do 
with the additional Inland Waterway Trust Fund revenues that 
they have not allocated for fiscal '16? Because that is $53 
million that is unaccounted for.
    Ms. Darcy. We are looking at other possibilities. One thing 
that I know that you are interested in is Chickamauga Lock.
    Mr. Fleischmann. Yes, ma'am.
    Ms. Darcy. We are currently looking at evaluating the 
priorities within that list of who is next, because right now 
Olmsted is the first priority, Monongahela--two, three, and 
four, is the second priority--Kentucky Lock is third, and Chick 
Lock is fourth. The Corps is currently looking at those 
evaluations so that we can make a determination of whether we 
need to re-look at that priority. We hope to have that 
completed this summer.
    Mr. Fleischmann. Okay. So it would be fair to say that you 
do intend then to take that $53 million and invest that in our 
waterway infrastructure?
    Ms. Darcy. We will be looking at those balances as to 
whether we are going to be able to invest the entire amount 
within our entire budget which is $4.7 billion.
    Mr. Fleischmann. In reality we may actually end up having 
in excess of $53 million because that is a rather conservative 
estimate at the 53.
    Ms. Darcy. I think so.
    Mr. Fleischmann. Okay. Thank you. I wanted to ask you a 
further question, Madam Secretary. This year's budget request 
for the Army Corps is virtually flat compared to last year. It 
is considerably lower than last year's appropriation from 
Congress. Within the Inland Waterways construction the budget 
is 17 percent below last year's Congressionally enacted level. 
When everyone from the President to both parties in Congress 
agree on the importance of inland waterways, can you please 
explain to us why funding has been cut?
    Ms. Darcy. The level that we are funding our inland 
waterways within the President's budget, within our Corps of 
Engineer's budget is what we believe is affordable at this time 
given all the pre-existing priorities across the government.
    Mr. Fleischmann. Okay. Then let me ask you a point blank 
question, is waterway infrastructure a priority for this 
administration? Because it is a priority for us, for me in 
particular. Is it a priority for this administration?
    Ms. Darcy. Yes, it is.
    Mr. Fleischmann. Okay. Thank you. General Bostick, sir, 
what additional work on the Inland system could be done if 
funding stayed at the fiscal '15 levels Congressionally 
enacted? And as a follow up to that, sir, what kind of economic 
benefits would be derived from that extra investment?
    General Bostick. I just want to make sure I have the 
question clear. What kind of work could we do with additional 
funding on the Inland Waterways?
    Mr. Fleischmann. If we spent at the fiscal '15 level that 
Congress enacted.
    General Bostick. I am not clear.
    Mr. Fleischmann. Spent all the money you had to spend in 
'15.
    General Bostick. If we spent all the money that we had in 
'15 what kind of work could we accomplish?
    Mr. Fleischmann. What additional work?
    General Bostick. You know, there is a variety of types of 
work that we could do on the Inland Waterways, everything from 
the dredging work that we accomplish to the work that we do on 
our locks and dams. There are a number of things that are in 
our day-to-day operations and maintenance work that could 
happen as well as construction.
    Mr. Fleischmann. Okay, sir. General, could you please give 
me an update on the status of Olmsted along with an anticipated 
completion date?
    General Bostick. I would say that Olmsted is going very 
well and I recall the date is around 2019 when we are going to 
be complete with the major work.
    Mr. Fleischmann. And one final question, sir. Can you 
please give me an update on the current condition of existing 
Chickamauga Lock and what maintenance needs to be performed in 
fiscal 2016?
    General Bostick. Right. We do a study from time to time on 
the Chick Lock; the last structural study was a finite element 
study that said there is no immediate danger of structural 
failure. What we are continuing to do with our meters is to 
monitor significant movement. We have seismic monitors that are 
on there as well, so we are going to continue to monitor to 
ensure that if there is a potential structural failure that we 
take whatever necessary actions we can. But right now we do not 
see that as an issue.
    Mr. Fleischmann. Okay. And do you know of any specific 
projected maintenance for the Lock, through watering or 
anything that is set for the existing Chickamauga Lock? Do you 
have----
    General Peabody. No, sir; I believe it is just the routine 
monitoring and the routine maintenance this year.
    Mr. Fleischmann. Yeah.
    General Bostick. We believe it is the routine monitoring 
and maintenance that we are doing.
    General Peabody. Sir, what I would say is we have 
undertaken a very deliberate and thorough approach to proactive 
maintenance on our locks and dams, especially in the upper 
Mississippi and Ohio region which includes the Cumberland River 
and the Tennessee River. That means we have a very deliberate 
periodic maintenance program that includes analysis that is 
being applied at Chick Lock. General Bostick mentioned the 
finite element analysis which is done for structures that we 
know have technical issues like Chickamauga Lock does. I 
believe we are going to do an update on that this year. But for 
this year I don't believe that the District has a specific non 
routine maintenance plan, but we will get back to you with a 
specific answer.
    Mr. Fleischmann. Thank you, General.
    General Bostick. Since 1998 we have spent about $29 million 
in maintenance efforts related to this growth, and this year we 
have $1.63 million that is included in the budget for 
dewatering, inspections, and minor repairs for FY '16.
    Mr. Fleischmann. Yes, sir. All of which would enhance the 
need with the antiquated lock to get construction started on a 
new Chick, which is about a third complete.
    With that I thank you and, Mr. Chairman, I yield back.
    Mr. Simpson. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. For the panel I 
would like to thank all of you for your service. I would like 
to associate myself strongly with the Chairman and ranking 
member, and other members who have commented about the budget. 
I have now been on this Subcommittee for the better part of two 
decades. I appreciate that you fought for appropriate funding 
and did not get it. And just appalled at the failure of 
administrations of both parties not to invest in this country's 
infrastructure, to protect people's lives, and to build our 
economy. Other than that I do not have a strong opinion about 
the matter.
    There are a number of questions. For the record, I am not 
going to ask them about the issue of invasive species in the 
Great Lakes and carp; it is not out of lack of strong interest 
and support for that program. But the question I would ask 
relates to small, remote, and subsistence navigation harbors 
and facilities. There has been a lot of discussion about 
backlog during the hearing today. I do not know if the Corps 
has a backlog figure for those particular types of structures. 
If they do I would appreciate knowing, or if there is an answer 
for the record I would appreciate that. And I don't know. If 
you do have a figure that would be terrific.
    Ms. Darcy. Low use subsistence harbors?
    Mr. Visclosky. Yes, ma'am.
    Ms. Darcy. We will give you a specific number for that 
particular category of harbors.
    Mr. Visclosky. If you could. And echoing the full Committee 
Chairman's question earlier on deferred maintenance with the 
monies that are in the budget request for '16, would the 
backlog whatever it may be stay the same, decline, or increase 
during fiscal year '16? If you could answer that for the record 
as well.
    Ms. Darcy. Will do.
    Mr. Visclosky. Good. Thank you. And thank you, Mr. 
Chairman.
    Mr. Simpson. Thank you. Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thanks, Mr. Chairman. It is a pleasure 
to be on the Subcommittee. I feel like I am following you 
around Subcommittees.
    I specifically asked to be on this Subcommittee in large 
part because of the important role you all play in the Pacific 
Northwest. My district is about from Mount St. Helens down to 
the Columbia River, out through the mouth, and then as you can 
ascertain I am on the Wet side of Washington State. So you all 
play an incredibly important role in the protection, growth, 
development, and sustainability of my district. And in that 
vein I have a couple of questions.
    The first is the water bill that we passed last year 
directs 10 percent of the total funding for harbor maintenance 
activities to be used at emerging harbors. I have 15 public 
ports. I have a lot of small ports. That term is defined 
similarly to what this Committee calls small, remote, or 
subsistence navigation. Since the total Harbor Maintenance 
Trust Fund request is $915 million, basic math, which is about 
where I roll, 10 percent would be about 91.5. Does this budget 
include that $91.5 million for emerging harbors and small 
ports?
    Ms. Darcy. Yes, it does.
    Ms. Herrera Beutler. Wonderful. The other, kind of 
switching gears, in Washington State, so the Cowlitz River 
which picks up a lot of the silt from Mount St. Helens, very 
often is it in danger of flooding many communities in my 
district up and down that river. And one of the things I wanted 
to ask about is both the work plan and the FY '16 request zero 
out existing efforts to monitor and assess flood risk in that 
region. Can you speak to that for a moment, because I assume if 
we have heavy flooding it is going to be more expensive for you 
all to go in there. I just wanted some background or some 
thoughts on why.
    General Bostick. On why it would be more expensive?
    Ms. Herrera Beutler. No, on why it was zeroed out.
    General Bostick. Representative, I would say that this 
project is considered with all other projects and we do a 
performance based budgeting by policy. While this is very 
important, it competes with a lot of other projects that we 
have to work on. What we are hoping to do is a Limited 
Reevaluation Report on this which would be a follow up to the 
Chief's Report which done in the '80s, and that report would 
require about $140,000 in order to complete it.
    Ms. Herrera Beutler. I am so sorry to interrupt. I just 
want to make sure I am following. So the evaluation that helped 
you make the decision to zero was the one done in the '80s? No?
    General Bostick. No.
    Ms. Herrera Beutler. I am not following that.
    General Bostick. No. Normally in order to have a project 
you have to have a Chief's report.
    Ms. Herrera Beutler. Yes.
    General Bostick. So we did that back in the '80s. We then 
had to reevaluate based on trying to do new work there and it 
was not included in the budget. But it could still compete 
later in the work plan with the additional money that has not 
been allocated. We are going to do that work by the end of 
February, reassess other projects and this may or may not be 
one that we can fund.
    Ms. Darcy. I was going to concur with the Chief that yes, 
we are looking at that unexpended balances in the work plan and 
this is one of the projects that is being considered.
    Ms. Herrera Beutler. Great. We very much appreciate that 
second consideration. I know our Governor is working with the 
local stakeholders and the State is doing its part, but 
obviously the Corps plays a pretty big role here. So I 
appreciate that and would like to be kept up to date as you 
move forward.
    The last little section I wanted to cover was we seem to 
have a permitting problem in Washington State. Being where I am 
located we have the privilege of working both with the 
Washington and the Portland Corps, and the difference between 
the two--and I am not talking about the people, I am just 
talking about the actual product in terms of days waiting for a 
yes or a no, is night and day. And it is not that there are 
more sensitive environmental or tribal issues more so to 
Portland or Southwest Washington, it is the same region, but we 
are talking of hundreds of days' difference in terms of NPDES 
or nationwide permits. So we feel like we have a pretty good 
thing to compare in terms of reasonable similarity. And we have 
been very grateful for the Section 214 flexibility, we are 
working on maybe expanding on that, but is there a way that you 
can help us figure out why there is such a difference? I have 
my own ideas, but I would really like your help in bringing 
into line the amount of time it takes to get those permits, 
with reasonableness in regards to other regional offices. It 
should not be this different.
    General Bostick. You know we hear this from time to time in 
a number of different areas, but we are happy to take a look at 
it. Usually there is some reason that is not clear to 
everybody, but we are happy to look at it.
    Ms. Herrera Beutler. Well, I mean I see it across, whether 
it is municipalities, whether it is developers, whether it is 
people just trying to rebuild after a flood. It is amazing the 
difference. And I know that the Corps has put in Vancouver, 
just across the river from Portland but down from Seattle, an 
office to help. We thought maybe it is just paperwork, maybe it 
is just getting stuff where it needs to go. But what we have 
found is the Vancouver office has not had the same ability to 
make decisions and so things get sent there bundled and then 
sent up to Seattle and they are actually put behind--it is 
further down the wait list. And I know in Eugene you put a 
section chief there so that people did not have to come all the 
way up to Portland. Maybe giving a little bit more authority to 
Vancouver, perhaps making a section chief would help. So I 
would ask that you look at that as we move forward.
    General Bostick. We will take a look at it and provide you 
some feedback.
    Ms. Herrera Beutler. That would be great. And with that I 
yield back. Thanks, Mr. Chairman.
    Mr. Simpson. Thank you. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. I would like to add 
on. Ms. Roybal-Allard mentioned the significant drop we are 
having in the West, not just in California, but I would add 
that the City of Los Angeles and much of Southern California 
probably will be going into mandatory rationing this summer 
unless a miracle occurs here in the next few weeks and resolves 
that issue. But I do not have high expectations. And so it is 
correct that we have been studying these, you and your brothers 
and sisters in reclamation, storage projects from expanding 
Shasta to the San Luis Reservoir, to the Upper San Joaquin, the 
offsite reservoir sites, and the rest. And we need to get 
moving on these things, the sooner the better. Obviously this 
summer is going to be a very difficult one and my friend Mr. 
Valadao is feeling the brunt of this already and we are going 
to be feeling the brunt of it also in Southern California.
    But with that, we had mentioned this work plan, money, that 
$79-80 million that has yet to be allocated. And I think I have 
discussed with several of you about the project in Murrieta, 
California. We have been working on a very aggressive schedule 
to bring flood control to the community. It was made possible 
through both the combination of federal funds secured in the 
project and we accelerated the non-federal cost share from the 
County of Riverside, from the county flood control.
    This project obviously is critical. The community is 
vulnerable to flooding, to long delays in implementing the La 
Mirida Creek Project, and I think the Corps, Riverside, and I 
made commitments to the community to move this project forward. 
In addition to adding your flood protection community, the 
project will create over 160 acres of wildlife habitat, wetland 
reparation, and seven miles of earth channelization and 
development of continuous habitat and so forth. But the 
question is I understand we are waiting for the completion of a 
limited reevaluation report. This report will likely result in 
a project that is economically justified under the Corps policy 
so it can be complete for additional funds in the future.
    What is your timeline for this report?
    General Bostick. We are looking at the third quarter of 
2015.
    Mr. Calvert. Third quarter of 2015?
    General Bostick. Yes, sir.
    Mr. Calvert. Okay. Because we need to get this done in this 
area. We have had a 10-year lull between when this project 
first started, as you know, in phase one; now in development of 
phase two. So we would like to get this completed.
    As a comment, Ms. Roybal-Allard brought up the L.A. River, 
and I am just going to make a comment about it. As you know, no 
funds were included in Fiscal Year 2016 Budget Request. No 
funds were included in Fiscal Year 2016 Work Plan. Funds 
allocated in a study in Fiscal Year 2014 are expected to be 
sufficient to complete the study phase as I understand it, and 
a chief report is expected sometime later this year. The 
project would then need to be authorized before construction 
funding could be considered. There is a phase of work between 
the Chief's Report and construction, as you know, called the 
PED, or the preconstruction engineering design. So if the Corps 
has funds above the budget request in Fiscal Year 2016, is it 
possible PED funding would be provided if the construction has 
not been authorized by then? Is that possible?
    Ms. Darcy. Sir, we are looking at funding PED for projects 
that have a completed Chief's Report. So if there is some----
    Mr. Calvert. Even if it is not authorized?
    Ms. Darcy. We usually do not allocate PED funding on 
projects that are not authorized.
    Mr. Calvert. Usually?
    Ms. Darcy. Yes.
    Mr. Calvert. What does that mean?
    Ms. Darcy. It means most of the time.
    Mr. Calvert. Does that mean that you are going to make an 
exception here?
    Ms. Darcy. What we are trying to do with PED funding is not 
allocate PED money to projects that are not going to be 
authorized. We are trying to find a place in the process that 
makes the most sense to be the cutoff point for when we would 
proceed to PED. That is usually an authorized project. However, 
there can be considerations made if the Chief's Report is on 
its way. There can be considerations made.
    Mr. Calvert. How often does that happen?
    Ms. Darcy. Not very often.
    Mr. Calvert. Let us say in the last 10 years, how often has 
that happened?
    Ms. Darcy. I do not know but I could find out for you.
    Mr. Calvert. Not often, has it?
    Ms. Darcy. Pardon me?
    Mr. Calvert. If any?
    Ms. Darcy. Not very.
    Mr. Calvert. Yeah.
    Ms. Darcy. I will look though for you so that I can better 
answer the question.
    Mr. Calvert. I just think a number of us have had projects 
that we have been working on for a number of years, so I just 
bring that up. And so, and I have a couple of other questions 
regarding that that I will enter into the record. For the 
interest of time, I will yield back the balance of my time.
    Mr. Simpson. Thank you, Mr. Calvert.
    I would note before I call on the last member that for your 
sake, if you have not noted it already, that three of the four 
new members are from California. And the only four members of 
the Committee that are not either the ranking member or myself 
that are still here at this hearing are from California. 
California plays an important part both in this country and on 
this Committee. I just say that for your benefit if nobody had 
noticed yet.
    Now I call on the other new member to the Committee from 
California, Mr. Valadao.
    Mr. Valadao. Thank you, Chairman.
    I would like to back up some of the comments or reinforce 
some of the comments made by my colleagues from California. 
Water is obviously something that is very important to all of 
us. Ms. Roybal-Allard and Mr. Calvert--I am used to calling him 
Ken and I have got to break that habit in front of people. But 
those are what we are facing right now in the Central Valley 
especially. We have started to kind of feel the brunt of it 
faster and quicker than anywhere else because my area does not 
have as many votes as some of the larger cities. And so we, for 
some reason, get beat up the worst.
    But I would like to also talk a little bit about the Clean 
Water Act, which Mr. Rogers, the chairman, brought up earlier. 
The Fiscal Year 2015 Act included a prohibition on regulating 
certain agriculture activities under the Clean Water Act. Can 
you please explain any actions taken to date to ensure 
compliance with this provision? Has any guidance or direction 
been provided to district offices? And if so, please submit a 
copy to the Committee. If no actions have been taken to date, 
when do you anticipate implementing these provisions?
    Ms. Darcy. Congressman, we have submitted guidance to the 
field on the provision that you are referring to regarding 
exemptions under the Clean Water Section 404(F)(1)(a)(c). And 
that guidance has gone to the field. We also have withdrawn, 
which was also required in the Appropriations Bill, the 
interpretive rule that we had published with EPA.
    Mr. Valadao. Then on to a different topic. In 2014, 
Congress approved the Water Resources Reform and Development 
Act or WRRDA, and specifically, Section 1006. Section 1006 
allows public utility companies and natural gas companies to 
participate in an already established program within the Army 
Corps of Engineers to expedite the processing of permits. Or my 
constituents, this means a more transparent, timely, and 
predictable evaluation of permits, which will facilitate 
infrastructure investment that ultimately supports economic 
growth and job creation in my district and around California. I 
understand the Army Corps of Engineers held a public listening 
in September 2014 to receive public input on the development 
and implementation guidance for Section 1006 and other 
provisions under WRRDA 2014.
    I appreciate you taking such action; however, to date, 
guidance for Section 1006 has not been issued. Can you please 
provide me with an update on the status of the guidance 
document for this section, and specifically, when you expect it 
to be finalized and implemented?
    Ms. Darcy. I do not have that but I can get it for you. I 
know that it amends Section 214, which is the provision that 
the Congresswoman was referring to by adding oil and natural 
gas to that. It is under development but I will get you an 
answer as to when we expect it to be finalized.
    Mr. Valadao. All right. And then the Panoche Valley Solar 
Project in both my district and Sam Farr's district, my 
bordering district, would bring jobs to our communities and 
help increase California's energy portfolio. This project would 
finance the permanent conservation of over 24,000 acres of the 
Diablo Range habitat. This project is currently awaiting its 
environmental review, and I understand the project development 
team has proposed several logical adaptations to the draft 
project review schedule. Given the extended time the project 
team has been working with the Army Corps staff, I see no 
reason why the necessary draft Federal Environmental Impact 
Statement publication and circulation cannot be completed by 
February 2015. Can you give me an update on this project's 
environmental review?
    General Bostick. The draft EIS is supposed to be complete 
in September of 2015, and we expect a permit decision by the 
summer of 2016.
    Mr. Valadao. So still a ways away?
    General Bostick. I know we have worked this diligently and 
we are going to go back and review our own processes and 
determine what happened here. If there are some systemic 
issues, we will certainly work those throughout the Corps. We 
have our folks focused on it. They are working it hard in the 
district, and we are monitoring it from our level. I am a 
resident of California.
    Mr. Valadao. Lucky.
    General Bostick. Representative Farr is my Congressman, so 
we are very close by, and a lot of the issues that you relate 
and others have related on the water challenges out there, my 
own family and friends are feeling that. So I am not biased in 
my decisions but I did want to mention my personal interest and 
understanding of the issues.
    Mr. Valadao. Well, I appreciate that, and I look forward to 
getting some answers on those two. Perfect. Thank you.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. I apologize. I am 
in between two hearings and doing the best I can, so I am sorry 
if some of this may be redundant.
    Secretary Darcy, thank you again for your hard work and I 
believe proper assessment of the Western Sarpy County Clear 
Creek Project. That is completed successfully now. A few years 
ago you were able to come out and observe the importance of 
this project from both an environmental, as well as flood 
control status, and I was grateful for your willingness to do 
that. So thank you very much. I hope it was enjoyable for you.
    Ms. Darcy. I think it was one of my only trips to your 
state.
    Mr. Fortenberry. Well, you are welcome any time, and if you 
do not want to ride the airboat again, we can also arrange 
that.
    But I want to talk about two issues. Let me be specific in 
regards to the 500 Year Flood that happened on the Missouri 
River. Apparently, Corps-designed standards for the levees now 
are imposing upon the community of Bellevue, which is home to 
Offutt Air Force Base and Strategic Command. New levee designs 
that will cost, it has been proposed, about $35 million. That 
levee held during the flood. There was some sandbagging and a 
robust community response that did take place, but it did hold. 
So now we have some new design standard that is coming along 
and apparently a confusion or discussion or a lack of clarity 
on how this is going to get paid for. So I would like you to 
address that issue. First of all, the necessity of such a 
standard given that that levee held with some support 
mechanisms, and then secondly, payment.
    The third point I would like to make with you is going back 
to the Waters of the U.S. proposed rule. If you have not heard 
yet, this has upset a lot of people. I think you are getting a 
lot of commentary in that regard. I understand there has been 
some discussion internally of perhaps an agricultural 
exemption. If that is the case, I would like to hear your 
perspective.
    Ms. Darcy. On the Waters of the U.S. rule, Congressman, the 
rule as proposed keeps in place all of the existing 
agricultural exemptions under the Clean Water Act for farming, 
ranching, and silviculture. What the proposed rule does, in 
addition, is exclude upland ditches for the first time. There 
are other exceptions as well in there, but that one is the 
most, I think, particular to agriculture. But the rule, as I 
say, keeps the agriculture exemptions as they are, as well as 
includes additional exemptions.
    Mr. Fortenberry. Define upland ditch for me.
    Ms. Darcy. An upland ditch is when you make a ditch from a 
dry place, through a dry place. So it is not connected to a 
water body. It is upland of water. I always think of it as dry 
to dry.
    Mr. Fortenberry. Independent of some tributary then?
    Ms. Darcy. Yes.
    Mr. Fortenberry. I see. Okay.
    General Bostick. As far as the levees, I cannot speak to 
the specific issue at Bellevue and Offutt Air Force Base, but 
we will follow up on that. But I would say in general, when we 
look at our levees and develop a standard, that standard is the 
standard that we use throughout. And it has been developed over 
many years. The whole intent is public safety. And because a 
levee might have served and survived a storm, there is no clear 
indication that it would survive the next one. I do not know 
the facts behind this, and we will go dig into the facts, but I 
feel our levee safety program and the design of our levees, in 
addition to what we have learned from Hurricane Katrina and 
Sandy and the flood on the Mississippi, has given us a wealth 
of expertise in how we design these. In terms of the cost, I 
will have to look deeper.
    Mr. Fortenberry. Well, this was the Missouri, just to be 
clear.
    General Bostick. Right. I understand.
    Mr. Fortenberry. You said Mississippi. I just need to----
    General Bostick. I meant there was a Mississippi flood.
    Mr. Fortenberry. I get that, too. But the one next to me 
was----
    General Bostick. Right. And we have learned a lot from 
Missouri. That was my error.
    Mr. Fortenberry. Just add that to what you have learned 
from, I guess.
    General Bostick. We have learned a whole lot from the 
Missouri.
    Mr. Fortenberry. Well, would you unpack though the 
problematic question of, again, an imposition by the Federal 
government of a new standard design and then cost-sharing 
arrangements.
    General Bostick. Again, I would have to take a look at it. 
I am not aware of a new standard design. The design standard is 
the design standard.
    Mr. Fortenberry. Well, maybe I am stating that incorrectly. 
There is some need to enhance the current levee structure that, 
again, held properly with some reinforcement during what I 
think is classified as a 500-year flood. And so now that comes 
along as cause of great consternation in the community as to, 
again, there is a major federal installation there, a base that 
would demand protection, and yet, a significant cost 
potentially being imposed upon the local community which may be 
beyond its capacity to absorb.
    General Bostick. We do annual levee safety inspections, and 
it is possible that this originated from a safety inspection 
that identified some damage. Or identified that the levee was 
actually not built to standard, and that may have originated 
the issue. We will find out. Then in terms of cost, there is 
generally a cost-share agreement that we work. And I do not 
know if that is where the $35 million came from, but again, we 
will follow-up, Congressman, and make sure we provide you the 
details.
    Mr. Fortenberry. Well, that would be helpful. Again, we are 
at the early stages where the possibility of this is being not 
just proposed but imposed upon the community, and that is 
causing a great deal of concern as to where the payment is 
going to come from and how that is properly allocated, 
particularly given the fact that this substantively protects a 
major military installation. Obviously, the local community 
would benefit from that and would have some role, but again, 
the clear issue is the federal nexus here.
    General Bostick. Okay.
    Mr. Fortenberry. Thank you.
    Thank you, Mr. Chair.
    Mr. Simpson. Thank you.
    Now, let me ask a couple questions. One of them is a little 
parochial.
    Ririe Reservoir. Ririe Reservoir in Bonneville County is a 
Corps of Engineers built and our Bureau of Reclamation owned 
and operated reservoir with flood control authority 
administered by the Corps.
    First, thank you for your work with reclamation regarding 
the possibility of additional water being carried over from one 
water year to the next. I understand that the water users, 
however, are interested in seeing further changes to allow more 
water to be carried over and available for use.
    General Bostick, can you please discuss the process for any 
next steps at Ririe? Which federal agency would take the lead 
on any next steps? And do you have the necessary authority? If 
you are in charge, do you have the necessary authority or would 
a change in law be required in which account and line items 
would funding be appropriated and would be appropriate? And 
would further action be considered ongoing operations or would 
a new start be required? And would there be a cost-share 
requirement for local stakeholders? I know that is a series of 
questions on the same subject.
    General Bostick. This would fall under the lead of the U.S. 
Bureau of Reclamation, but we would work very closely with 
them. They would have to go through a reallocation study. They 
would have to find a nonfederal sponsor that would pay the 
nonfederal share. My sensing that it would have to be 
authorized, but I would leave the details to the Bureau of 
Reclamation to answer.
    Mr. Simpson. Okay. Section 2102 of the Water Resources 
Development WRRDA of 2014 directed the Corps to submit a report 
to this Committee and others identifying the costs associated 
with maintaining authorized dimensions of harbors and inland 
harbors, as well as the funding included in the annual budget 
request. This information is to be on a project-by-project 
basis. The Committee has not received this report yet, even 
though it was directed to be submitted in conjunction with the 
Fiscal Year 2016 budget. Is the Corps working on it? And is 
there a schedule for submitting it?
    Ms. Darcy. Yes.
    Mr. Simpson. Yes, you are working, or yes, there is a 
schedule?
    Ms. Darcy. We have not initiated the development of this 
report. As you know, it was one of over 40 reporting 
requirements that were in that bill. So we have not initiated, 
and I do not know what our timetable is for starting it. Do 
you, Mark?
    Mr. Mazzanti. No, I do not, but we are looking at those 
requirements. Mr. Chairman, we are looking at all of the 
requirements in the WRRDA for reporting and trying to determine 
where those that we need additional funding are and where those 
that we can meet them based on the number of criteria. And we 
will have that analysis completed very shortly.
    Mr. Simpson. You will let us know if additional funding is 
required and where it will come from?
    Ms. Darcy. Yes.
    Mr. Simpson. Okay, thank you.
    Finally, my last question, the ban on congressional 
earmarks means that the administration has the sole discretion 
to decide what specific new studies and construction projects 
are initiated. This Committee though still has a role to play 
in setting programmatic parameters for which types of projects 
should be considered. Unfortunately, the Committee efforts have 
been hindered by the lack of clarity as to how the 
administration determines new starts.
    Secretary Darcy, can you please discuss how your office 
approaches the decision to which projects are considered new 
starts and which are not? How do you determine which projects 
to propose for new starts in your budget request? And then I 
will ask about a specific one.
    Ms. Darcy. Okay. We had nine new study starts in the 2014 
work plan. I think we also submitted the rating report which 
explains how we made the decisions on new starts, both in 
studies, construction, and the whole account. But new starts in 
the construction account are when we actually turn dirt. That 
is when it is considered to be a new start.
    Mr. Simpson. Okay.
    Ms. Darcy. And in the other accounts, it is when a federal 
investment is beginning. So a new start study would be when 
that first federal investment is being proposed for that.
    Mr. Simpson. In the Fiscal Year 2016 Budget Request, it 
proposes a single new start in investigations that would fund 
continuing work on three of the nine focus areas identified in 
the North Atlantic Coast Comprehensive Study. Can you please 
explain, one, why this activity was determined to be a new 
start rather than ongoing work? And two, why this work was 
proposed in a single line under Remaining Items rather than 
proposed each focus area as its own line item as with most 
feasibility studies? And can we expect to see the remaining six 
areas requested in future budgets, and will they be treated as 
new starts?
    Ms. Darcy. As a result of the Sandy comprehensive study we 
looked at nine focus areas in the region and in looking at 
those, for the purposes of the '16 budget, we are looking at 
three of those nine focus areas in that Remaining Item to be 
funded in the '16 budget. All of the other focus areas in that 
remaining line item would all be considered the same. The only 
ones that we are asking for funding for in the '16 budget are 
the three. And those three are ones that we think that we have 
local sponsors for.
    In the future, we would be looking at the other focus areas 
the same way we are looking at these. It is just that the 
others are not ready to go yet.
    Mr. Simpson. But we have three areas that are one new 
start, right?
    Ms. Darcy. Well, the line item is one new start but it is 
for the nine focus areas within that study. They have already 
had some initial study and use of the money from the Sandy 
supplemental. We wanted to make sure that the whole item shows 
the nine focus areas but just for this '16 budget, the funding 
would be requested for those three.
    Mr. Simpson. If they have already had some Sandy funding 
put toward them how come they are new starts instead of ongoing 
work?
    Ms. Darcy. We want to make sure that we are being 
transparent in showing what we plan to do regarding this study. 
The study did something different than we ordinarily do in 
looking at these areas quite frankly, but we wanted to make 
sure that we are open to what the new start realm is.
    Mr. Simpson. Okay, thank you. I appreciate that very much. 
Ms. Kaptur.
    Ms. Kaptur. Thank you very much, Mr. Chairman. And we thank 
the witnesses this morning for their longevity here. We 
appreciate it very much. You can see there is a great deal of 
interest and that is good. General Bostick, in the 2015 report 
accompanying your appropriations, there was a requirement for 
the Corps to report on how existing federal authorities can be 
exercised for interagency cooperation to meet the needs of the 
largest watershed in the Great Lakes, Lake Erie.
    Could you update us on the status of this report? There was 
a timeline requirement of 90 days in the legislation.
    General Peabody. Yes, Congresswoman. We have initiated 
coordination with the specified federal partners, interagency 
partners, and that initial report is due next month. We are on 
track to provide a strategic framework recommending how we 
might get after this issue associated with algal blooms in 
Western Lake Erie.
    Ms. Kaptur. Thank you.
    General Peabody. And we have also been collaborating with 
the Western Lake Erie Basin Alliance in that regard as well.
    Ms. Kaptur. Thank you. Thank you very much, General, I 
appreciate that. I am also going to unanimous consent to place 
in the record a follow-up to a question I asked first in the 
last round which had to do with the employment, the job 
creating potential, of the Corps. I also am going to ask if to 
include, Mr. Chairman, a summary I have state by state but I am 
going to ask the Corps, congressional district by congressional 
district, how many jobs the Corps directly hires.
    In other words, if you are total staffing which 
congressional districts they are located in? So we have it by 
state and we would appreciate that. Thank you so much, Mr. 
Chairman.
    I wanted to also ask on dredging contracts, the Corps 
generally bids contracts based on least-cost bidder. I have 
been made aware that at least one project in the State of 
Washington resulted in award to a contractor who really seemed 
not qualified to do the job. And it may result in a large 
portion of that particular harbor not being able to be used for 
the majority of this year.
    General, there are many areas of the country where these 
dredging projects are challenging on the best of days. Is this 
a more widespread problem than just one harbor and what can be 
done to ensure that this is not an issue going forward?
    General Bostick. We talked about this with leaders in our 
headquarters and I would say probably 98, 99 percent of the 
time we get it right on this dredging. And from time to time, 
we run into a contractor that bids on a contract--and these are 
sealed bids--that it turns out that the work they run into is 
more difficult than the crew that they have or the equipment 
that they can handle. And that was the case in this particular 
area. But it does not happen often. It is not a systemic 
problem. We do very well on these contracts and the work that 
we have to do in dredging.
    Ms. Kaptur. Thank you. I have a question on Asian carp. 
Congressman Visclosky didn't want to get into it in a great 
deal of detail this morning but I have to say, obviously, it 
threatens a $7 billion fishery in the Great Lakes. And I am 
curious as to how many years it would take to have the 
operational barrier completed at the Brandon Road Lock and Dam 
and how does this compare to other proposals you have to review 
and what can be done to speed up the process if it is going to 
languish out there?
    Ms. Darcy. Congresswoman, the Brandon Road Lock proposal is 
a result of the GLMRIS study that the Corps completed looking 
at a number of alternatives for keeping invasive species out of 
the Great Lakes from the Mississippi River and tributaries. And 
the Brandon Road Lock was one of the alternatives that was part 
of several of the alternatives. We are funding it because this 
is a one-way pathway for the fish. That is one of the reasons 
it was selected, that through the study process we can to 
determine whether this could provide an additional barrier.
    We are scoping, I think we have our first scoping meeting, 
I am looking at General Peabody, underway to determine the 
scope of the study because it is going to a complex problem. We 
plan to look at an existing structure and how one can, in some 
way, retrofit that to take care of the Asian carp or the 
invasive species problem. I don't know, General, if you want to 
add anything?
    General Peabody. The only thing I would add, ma'am, is this 
is a good example of why we appreciate the Congress giving us 
waivers for the policy that we put in place and that you put 
into law because this is likely to exceed that by two or three 
times that amount, maybe more. Next month we will be having a 
review at the headquarters of the regional proposal to execute 
the feasibility study for Brandon Road. And once we have that 
reviewed, then we will be able to make a determination as to 
what the appropriate funding allocations will be.
    But the Administration has put in with carry-over, I think 
in GLMRIS we have, close to $2.5 million to get this kick-
started and we will continue to keep Secretary Darcy apprised 
of our funding needs as we go forward.
    Ms. Kaptur. General, could you give us a sense of what you 
know? The last I heard was that a lot of the fish were 30 miles 
from the Chicago barrier. For some strange reason, no one 
understood why more of them were not coming north. But we know 
some are coming north. But what is the latest you know?
    General Bostick. I actually put a chart together for you 
and we can pass that to you either now or later. But it 
provides to answer to the question you had last year, a 
graphical means to better see it. If you would like to see that 
chart, we can show it to you now or I can talk you through it.
    Ms. Kaptur. Well, General, give us the short synopsis.
    General Bostick. The dispersal, the electric barrier is 
about 37 miles from the Great Lakes. The presence of adult fish 
is about 55 miles. Spawning area is at about 62 miles and in 
the established population is about 143 miles away from the 
Great Lakes. So that gives you a feel for where we are seeing 
them.
    And I think the point is that leading edge of the Asian 
carp has not changed movement since 2006 and we don't know why 
they have not moved, but they have not moved from that leading 
edge of where the carp are located since 2006.
    Ms. Kaptur. General, that is such important information. I 
would ask you to summarize it in a way we can provide it to all 
interested members, surely those from the Great Lakes. Might 
even ask for a special briefing because it is of deep, deep 
concern.
    Ms. Darcy. We can leave those charts with you, too.
    General Peabody. We will provide this to the staff what the 
Chief just talked about.
    Ms. Kaptur. I thank you very, very much. I wanted to ask a 
question about the harbor maintenance tax. And everybody is 
getting down in the weeds for their region so I have to do it 
for my region, too. If I look at the Cleveland Harbor and I 
look at the Toledo Harbor and the dredging challenges we face 
and the dredge disposal challenges we face, when you have--what 
happens to you inside of the Executive Branch if there is $9 
billion projected to be in the Harbor Maintenance Fund not able 
to be expended to deal with a few million dollars' worth of 
dredge material?
    Why can't we solve the problems of the dredge disposal by 
using a small amount of additional funds from the harbor 
maintenance tax? What goes on inside that denies us that 
ability?
    Ms. Darcy. Congresswoman, we need to look at the demands on 
the budget across the entire government and we did, however, in 
this budget have 10 percent of the Harbor Maintenance Trust 
Fund for Great Lakes activities, Great Lakes dredging.
    Ms. Kaptur. Yes. Let us hope that that helps us this year. 
And we thank you for that very much and I thank the Chairman 
for helping us all along. I also wanted to echo what the 
Chairman said about the number of members who are here from 
California today. But I wanted to step back from the particular 
to the general and ask you to inform us in the country, with 
the changing nature of the climate and the weather, a region 
like I represent has 50 percent more rainfall in the last 
decade.
    But if we listen to the other members of this committee, 
what is happening in California and other places is quite 
atypical. Could you give us just your brief sense of what are 
the most water-stressed communities in terms of water as you 
look at the whole country? I am talking about fresh water for 
drinking or for irrigation. And which areas of the country you 
see as having large amounts of water? What is the map in your 
mind? What comes up? Most water short, most water-stressed, 
most water plentiful, atypically plentiful?
    Ms. Darcy. I see the arid west.
    General Bostick. I think the Southwest is probably the 
driest and the Northwest has a lot of the water as well as 
parts of the East. But I think the Southwest, from, Texas to 
California, Southern California, clearly has huge, significant 
drought issues.
    Ms. Kaptur. Are you able to define that any more 
specifically by community, by congressional district?
    General Bostick. We could define it. Last year we were 
looking at a period, or year before last, where 67 percent of 
the country was in severe drought and that was significant. And 
that was the year that, or in 2012, where we had the issues on 
the Mississippi where we almost could not move barge traffic. 
So the drought affected a large part of the country.
    In using that kind of a map, we can show you what 
districts, how districts overlay in the drought area.
    Ms. Kaptur. I think that would be very interesting. We 
could share it with our colleagues.
    Ms. Darcy. And we would also probably be looking to the 
U.S. Geological Survey because they do hydrologic mapping for 
the whole country and they probably have it by district and 
state by state as well.
    Ms. Kaptur. All right, well, we will work with you to 
prepare summary information in that regard. I didn't understand 
something in your testimony, Secretary Darcy. You talked about 
renewal of energy-sustaining accounts in your testimony? What 
was that referencing?
    Ms. Darcy. We are funding several efforts to help increase 
our sustainability. Is that what you are referencing?
    Ms. Kaptur. Yes.
    Ms. Darcy. For climate change.
    Ms. Kaptur. Could you explain a little more on that?
    Ms. Darcy. They are in various accounts and across projects 
and business lines. The majority of it is a focus on 
communities and helping communities to be more resilient by 
providing them with information and planning tools so that when 
they make decisions on whether to go forward with a project or 
to go forward with building, they can see what kinds of impacts 
that they would have. This is important especially in coastal 
communities regarding what the impact would be on future 
projections of sea-level rise.
    Ms. Kaptur. I see.
    Ms. Darcy. We have developed that tool along with FEMA and 
NOAA.
    Ms. Kaptur. All right, thank you. Thank you all very much 
for your service and, Mr. Chairman, thank you. I want to thank 
the staffs for doing a great job for this first hearing for us.
    Mr. Simpson. Thank you.
    Ms. Darcy. Thank you.
    Mr. Simpson. Again, thank you for being here. You can 
understand the frustration that some members have and when they 
see an increase, continual increase, in the amount in the 
Harbor Maintenance Trust Fund and it's growing and we can't 
spend it. That is not your problem. That is our problem because 
of the budget rules that we work under and if we were to 
increase the spending out of there and take money out of there 
to spend it, it would come out of some other account within the 
Energy and Water Appropriation Bill.
    The increase in tax, on fuel tax, for the Inland Waterway 
Trust Fund is something that has been needed, that the 
operators agreed to and to see the funding go down for it when 
the taxes are increased is frustrating to them and everyone 
else. But again, this is an issue that we have to resolve 
somewhere within Congress so that it doesn't affect some of my 
priorities in other parts of the budget to do it.
    It is the debate we come up with every year on the floor 
and it is hard sometimes for some people to understand but it 
is, you know, this wasn't imposed by God. He didn't say if you 
spend money in the Harbor Maintenance Trust Fund, you have got 
to take it out of this. That is something we did.
    So it is something we have got to address and try to fix so 
that we can actually, if you are going to tax somebody to 
address a need and the need still exits, why don't you spend 
the money to do what it was originally intended for?
    That is, you know, a rhetorical question. It is not for you 
to answer. But I appreciate you all being here today and again, 
I appreciate the great work that you all do. We thank you all 
very much for the work you do not only in-country but around 
the world. Thank you.
    General Peabody. Thank you.
    Ms. Darcy. Thank you.
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

                                       Thursday, February 12, 2015.

                         BUREAU OF RECLAMATION

                                WITNESS

ESTEVAN R. LOPEZ, COMMISSIONER, BUREAU OF RECLAMATION
    Mr. Simpson. I would like to call the hearing to order this 
morning. Good morning, everyone. Our hearing today is on the 
fiscal year 2016 budget request from the Bureau of Reclamation. 
Our witness is the new commissioner for Reclamation, Mr. 
Estevan Lopez. I would like to first congratulate you on your 
confirmation and also welcome you to the House Energy & Water 
Subcommittee. I look forward to working with you on the very 
important issues facing the Bureau of Reclamation. Your 
extensive experience with western water issues, or lack of 
western water issues, should serve you well as you take on this 
new role.
    My next comments may sound familiar to those who have been 
here in previous years, but since this is Commissioner Lopez's 
first time before the subcommittee, I think the message bears 
repeating.
    The fundamental challenge facing Reclamation is that the 
agency continues to be expected to do more and more with less 
and less. That challenge holds true for both water and funding. 
The population of the western United States continues to grow, 
which impacts the amount of water needed for public consumption 
and increases in demand for the electricity generated by our 
hydropower facilities. Our environmental requirements, or new 
interpretations of old requirements, have increased the amount 
of water directed towards restoring fish runs and habitat 
areas, yet the current drought reminds us that water supplies 
are not limitless and that we need to be mindful of how we 
prioritize its use.
    As for funding, Reclamation's budget has remained 
relatively flat for several years now while the increasing 
costs of an aging infrastructure, Indian water rights 
settlements, and large-scale ecosystem restorations often 
associated with the Endangered Species Act compliance, compete 
for limited resources.
    It would seem we, the Executive Branch and Legislative 
Branch together, have some tough decisions to make. We must 
reevaluate the number and breadth of actions we promised to 
deliver and ensure that the funding provided is directed to the 
activities that will bring the greatest benefits to the nation.
    I look forward to discussing with the new commissioner how 
the federal government might address these many concerns. 
Again, I would like to welcome to the subcommittee Commissioner 
Lopez.
    Please ensure that the hearing record, questions for the 
record, and any supporting information requested by the 
subcommittee are delivered in its final form to us no later 
than four weeks from the time you receive them; members who 
have additional questions for the record will have until close 
of business Tuesday to provide them to the subcommittee office.
    With that I would like to turn to Mr. Visclosky for his 
opening statement. Ms. Kaptur, our Ranking Member, is in Ohio 
at a funeral today and could not make it.
    [The information follows:]
    Mr. Visclosky. Mr. Chairman, thank you very much. And Mr. 
Lopez, I want to welcome you to your first hearing before the 
subcommittee. I join with the Chairman in looking forward to 
your testimony and thank you for joining us today.
    As the Chairman noted, Ms. Kaptur has to be absent today. 
Mr. Chairman, I would ask that her entire statement be entered 
into the record.
    Mr. Simpson. No objection.
    Mr. Visclosky. I would simply make a note that 
Reclamation's budget request for water and related resources is 
a 3 percent reduction from current year funding levels. Given 
the hearing we had yesterday on the Army Corps of Engineers and 
given my tenure on this subcommittee, I have no doubt where 
things were lost in the translation as you made your way to the 
subcommittee today. But nevertheless, we are all interested in 
finding appropriate places to cut. I have concerns that this 
reduced request continues the disinvestment in our nation's 
water resource infrastructure. Therefore, it will be especially 
important for the subcommittee to understand the specific 
methodology used to arrive at the set of projects and 
activities that you are now left with. Given your 
responsibilities and the drought situation in the west, 
particularly in the state of California, the work the Bureau is 
responsible for is critically important, and I look forward to 
your testimony today. And, again, thank you very much, Mr. 
Chairman.
    Mr. Simpson. Thank you. Commissioner Lopez, we look forward 
to your testimony.
    Mr. Lopez. Thank you, Chairman Simpson, and Ranking Member 
Visclosky and members of the subcommittee. It is an honor and a 
privilege to appear before this subcommittee today to discuss 
the President's Fiscal Year 2016 Budget for the Bureau of 
Reclamation and the Central Utah Project Completion Act. I 
appreciate the time and the consideration given to reviewing 
and understanding our budget, projects, and programs. I look 
forward to working collaboratively with you to continue to 
address the complex water issues that we face in the west. I 
have submitted detailed written testimony for the record.
    Reclamation's overall Fiscal Year 2016 Budget is $1.1 
billion. It allocates funds based on objective- and 
performance-based criteria designed to effectively implement 
Reclamation's programs and management responsibilities for its 
water and power infrastructure. At this time I would like to 
share a few highlights.
    The budget supports the Powering Our Future initiative by 
including $1.3 million to implement an automated data 
collection and archival system to aid in hydropower 
benchmarking, performance testing, strategic decision making, 
to investigate Reclamation's capability to integrate large 
amounts of renewable resources such as wind and solar into the 
electric grid, and to assist tribes in developing renewable 
energy resources.
    Reclamation's budget supports Interior's Strengthening 
Tribal Nations initiative through endangered species recovery, 
rural water projects, and water rights settlement programs. The 
budget includes $112.5 million for the planning and 
construction of five recent Indian water rights settlements.
    Reclamation's Native American Affairs program is funded at 
$10.9 million for activities with tribes, including technical 
assistance, Indian water rights settlement negotiations, 
implementation of enacted settlements, and outreach to tribes.
    The budget includes $36.5 million for rural water projects, 
of which $18 million is for the operation and maintenance of 
completed tribal systems. The remaining $18.5 million is for 
continued construction for authorized projects, most of which 
benefit both tribal and nontribal communities.
    The budget supports ecosystem restoration, providing $158 
million to operate, manage, and improve California's Central 
Valley Project, including $35 million for current 
appropriations to the San Joaquin Restoration Fund.
    The budget provides $437.7 million at a project level for 
water and power facilities' operation, maintenance, and 
rehabilitation.
    Reclamation's highest priority is the safe, efficient, and 
reliable operation of its facilities, ensuring that systems and 
safety measures are in place to protect both the facilities and 
the public. The budget provides $88.1 million for Reclamation's 
Dam Safety program, which includes $66.5 million to correct 
identified safety issues; $20.3 million for safety evaluations 
of existing dams; and $1.3 million to oversee the Department of 
Interior's Safety of Dams program.
    Reclamation is developing and implementing approaches for 
climate change adaptation, including through Interior's Water 
Smart program as follows:
    The Basin Study program is funded at $5.2 million. Working 
collaboratively with stakeholders, we assess risks and impacts, 
develop landscape-level science, and communicate information 
and science to develop adaptation strategies to cope with water 
supply and demand imbalances.
    The Drought Response program is funded at $2.5 million and 
will implement a comprehensive new approach to drought 
planning, drought emergency response, and long-term resilience 
strategies using existing authorities.
    The Resilient Infrastructure program is funded at $2.5 
million to proactively maintain and improve existing 
infrastructure for system reliability, safety, and efficiency 
for water conservation to prepare for extreme variability and 
to support healthy and resilient watersheds.
    Reclamation's Water Smart Grants is funded at $23.4 
million; Title XVI programs is funded at $20 million; and Water 
Conservation Field Services is funded at $4.2 million, enabling 
the west to better adapt to the impacts of a changing 
environment by helping to conserve tens of thousands of acre 
feet of water each year in urban and rural settings on both 
large and small scales.
    Now I am going to talk about the Central Utah Project 
Completion Act or CUPCA. This CUPCA office is a Department of 
Interior program that reports to the Office of Water and 
Science. In this budget, Interior is no longer proposing CUPCA 
be integrated into Reclamation. The 2016 budget request for the 
CUPCA program is $7.3 million and includes $1 million to be 
transferred to the Utah Reclamation Mitigation and Conservation 
Commission. The budget provides funding through the 
Department's CUPCA office to continue the partnership with the 
Central Utah Water Conservancy District and the ongoing 
construction of the Utah Lake System facilities, required 
program oversight activities, and Endangered Species Recovery 
program implementation.
    Reclamation and CUPCA are committed to working with our 
customers, federal, state, and tribal partners, and other 
stakeholders to find ways to meet water resource demands in 
2016 and for future generations.
    Mr. Chairman, this completes my statement and I would be 
happy to answer any questions that you may have.
    Mr. Simpson. Thank you and, again, welcome to the 
committee. Since this is your first time testifying as 
commissioner before this subcommittee, I would like to hear 
from you, what is your vision for the Bureau of Reclamation? Do 
you have specific goals for the agency, be it programmatic, 
administrative, or technical, to accomplish during your time as 
commissioner?
    Mr. Lopez. Mr. Chairman, as I think you know, I am 
relatively new on the job. I have been on the job now for four 
months, and I have been confirmed for just a bit over a month. 
So I am still on a very steep learning curve, but during the 
time that I have been here, first of all I would like to say 
that I am very impressed with the quality of the personnel that 
we have and with the impact that Reclamation and its activities 
have on the West and, by extension, on the entire Nation. It is 
imperative that we continue to maintain the existing and now 
aging infrastructure, to continue to provide those services. 
The economy of the entire West is really underpinned by the 
availability of water. If our infrastructure is not maintained, 
the economy is going to suffer.
    So this year and the last several years we have been 
suffering through some very, very difficult droughts. 
Reclamation has been focusing on trying to do drought planning 
and trying to respond to those droughts. That is going to be a 
continuing effort. Climate change is becoming more and more 
accepted as a reality, and I think in water management we are 
going to be challenged. I think we are going to be essentially 
at the tip of the spear, if you will, in terms of dealing with 
some of the consequences of climate change. As we get higher 
temperatures, crops are going to use more water. There is going 
to be more demand for water. Precipitation is expected in many 
instances to decrease, and the precipitation that we do get is 
often going to be in the form of rain as opposed to snow. So 
this is going to require that we plan our infrastructure and 
our infrastructure needs to accommodate that increased 
variability that we are going to be seeing.
    These are not new priorities for Reclamation. I think it is 
the path that the previous Commissioner and now Deputy 
Secretary had set us upon, but I think they are the right ones.
    One other challenge that is a huge issue for Reclamation I 
think, is we have an aging workforce. A very high percentage of 
our workforce is nearing retirement. We have a challenge to 
build up our workforce and bring in new talent, talent that 
will help us resolve some of these climate change and water 
availability challenges that we are facing.
    Mr. Chairman, I hope that answers your question.
    Mr. Simpson. Thank you. You mentioned the Central Utah 
Valley Completion project, Completion Act. I am not really up 
to speed on all of that, but I noticed in the title that 
Completion Act is part of the title. Is it something that we 
are ever going to be out of, that we are going to finish, that 
we are not going to have to worry about funding anymore in our 
bill?
    Mr. Lopez. Mr. Chairman, I think that we will be out of it, 
but perhaps not in as short a timeframe as we would all like. 
As you know, budgets are constrained and we are trying to make 
decisions as to how we allocate the limited resources to move 
all of the myriad of challenges forward, but none of them 
perhaps is moving at the pace that all of us would like.
    Mr. Simpson. Well, what are you proposing to do with this 
in your budget? You mentioned it and said that they are moving 
it out of BOR?
    Mr. Lopez. Mr. Chairman, no. In the last several years I 
think Reclamation has proposed on a number of occasions to move 
this, to integrate it into Reclamation's operation. At present 
it is outside of Reclamation. It is managed by Interior's 
Office of Water and Science, and this was I believe at the 
request of the constituents in Utah. We have requested it a 
number of years and Congress has chosen not to integrate it, 
and it has become very clear that the constituents out in Utah 
oppose that as well. We are not going to propose anymore that 
we integrate it into Reclamation. We are going to leave it 
standalone.
    Mr. Simpson. Okay. You mentioned during your testimony that 
you did take efforts to support Tribal Renewable Energy 
projects. Any other energy projects that you help with tribes, 
or is just renewable energy? What exactly does that program 
entail?
    Mr. Lopez. Mr. Chairman, within our mission we are 
obviously in the water business and, by extension, hydropower. 
So our primary focus is on hydropower and the things that we 
might do in that vein to improve energy reliability. Certainly 
there are all sorts of other energy options available to 
anybody, including the Tribes, but our focus is primarily on 
hydropower and to some extent other renewables that might be 
integrated into some of our works. For example, oftentimes on 
some of the lands that we own in and around our facilities, 
they might be conducive to installing solar or wind generators 
simply because there are already transmission facilities nearby 
and that sort of thing. So that is where our focus is.
    Mr. Simpson. The reason I ask that is because there are 
some people in the world who do not consider hydro as renewable 
energy. In fact, in one of the acts that we passed--and I think 
it was the Renewable Energy Standard--if it is hydropower now, 
it is not considered renewable. But if you improve the 
efficiency of the turbine, the addition will be renewable. And 
I am kind of going, this is bizarre. It is either renewable or 
it is not renewable. So definitions sometimes get in our way.
    Lastly, let me ask you about the Ririe Reservoir in 
Bonneville County. It was built by the Corps of Engineers--I 
asked this of the Corps of Engineers yesterday--but it was 
built by the Corps of Engineers and is now a Bureau of 
Reclamation owned and operated reservoir with flood control 
authority administered by the Corps. First, I want to thank you 
for your work with the local water users and the Corps of 
Engineers regarding the possibility of additional water storage 
being carried over from one water year to the next. I 
understand that the water users are interested in seeing 
further changes to allow more water to be carried over and 
available for use.
    Can you discuss with me what steps would have to be taken 
next, which federal agency--the Corps or DOR--would take the 
lead in those next steps, under what line item would funding 
have to be appropriated, and would further action be considered 
an ongoing operation or a new start?
    Mr. Lopez. Mr. Chairman, I will try to answer at least a 
piece of that question. As I think is implicit in your 
question, the Corps and Reclamation have worked together in 
recent years, and, in fact, last year we issued a record 
decision that would allow for some additional winter carryover 
of 8,000 acre feet. So we have, I think, begun the process that 
water users have wanted.
    I am told, and I am not an expert in all of this, but I am 
told that the Corps believes that if we were going to go any 
further in terms of looking at additional storage that there 
would need to be a reallocation study. The Corps believe that 
we, as owners of the reservoir, would be the lead agency in it.
    I would assume that for this sort of project we would have 
to have a cost-share sponsor, local cost-share sponsors. And we 
would have to work through all of those agreements in advance 
of this.
    Mr. Simpson. Okay. Appreciate it. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. Commissioner, in 
response to one of the Chairman's questions you mentioned the 
aging workforce and the fact that you have some turnover. Are 
there particular skill sets you are most concerned about losing 
and acquiring as you go through that transition with your 
employees?
    Mr. Lopez. Senator, or excuse me----
    Mr. Visclosky. Don't do that to me.
    Mr. Lopez. I apologize. I was in a Senate hearing 
yesterday----
    Mr. Visclosky. No, I am kidding you. I am kidding you. I am 
kidding you.
    Mr. Lopez [continuing]. I am still in that mode.
    Mr. Visclosky. I am kidding you.
    Mr. Simpson. You can tell which of us are senators and 
which are representatives because we don't have doctors 
standing behind us just in case. Go ahead, Commissioner.
    Mr. Lopez. I think we have across the board in all skill 
sets, we have got a lot of people that have been with the 
agency for many, many years and are getting ready to retire. 
But of particular concern are some of the engineering positions 
and, you know, power hydrology and hydraulic engineering-type 
skills.
    As you know, most of our dams were built 50 and more years 
ago. So we now have fewer engineers that have built those 
things and have the opportunity to build them. So people with 
those sorts of skill sets are going to be particularly valuable 
to us and we are probably going to be left with the 
responsibility of helping them acquire additional skills. Young 
people acquire additional skills once we are able to recruit 
them.
    Additionally, some of our facilities are in somewhat remote 
areas and that also makes it difficult to attract people with 
those skill sets.
    Mr. Visclosky. Right, okay. Thank you very much. 
Commissioner, reclamation emphasizes that water-smart grants 
and Title 16 grant programs are primary contributors to the 
Department's priority goal of water conservation. The budget 
request for '16 maintains funding for water-smart at currently 
year levels but reduces Title 16 grants below inactive '15 
levels.
    Why the disparity in treatment and is it a reflection of 
the effectiveness of either of the programs compared to the 
other?
    Mr. Lopez. I don't think it is intended to be any sort of 
reflection on the relative effectiveness of one program over 
the other. There are a few authorized Title XVI projects that 
continue to move forward and we continue to move forward. We 
think the budget that we have proposed, $20 million for that 
program, will continue to move those projects forward.
    The reason we are asking to grow the WaterSMART component 
relative to the other is that we want to try and get as many 
participants in this as we possibly can. Both programs do 
things that help us conserve water and, in essence, do more 
with less. But the WaterSMART grant program, in particular, is 
smaller amounts to more people and we want to just get more 
people involved in on the action.
    Mr. Visclosky. I usually refrain from asking hypotheticals 
but I will. If the Committee finds additional resources, would 
you have a preference between one or the other program if there 
was an add-on by the Subcommittee?
    Mr. Lopez. Representative, I think that we could probably 
use it in either and a good approach might be to split it 
between the two of them.
    Mr. Visclosky. Okay.
    Mr. Lopez. Last year we had the good fortune, and I want to 
thank this Committee for your part in it, of getting some funds 
in our budget and we used just criteria that made sense to us 
in terms of spreading all of those resources over a myriad of 
programs to try and maximize the benefit of those additional 
funds. And we would do the same here.
    Mr. Visclosky. Good. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. Mr. Lopez, you 
probably noticed that three out of the five members 
participating in this are from California. And I know you are 
very aware of the fact that we are having difficulties in our 
state and in the west, you know, and that is--we are not 
exclusively in a drought. But there were some questions on 
Title 16 and water-grant programs and the Secretary was out in 
California recently and made an announcement of some dollars 
that were for drought relief. This $14 million of Title 16 
program, this apparently an additional $14 million, where do 
you plan to spend that money?
    Mr. Lopez. I think I have got some in last year's budget, 
there was an additional $96 million that was added into our 
budget for various categories. One of those categories was for 
drought and that amount was $50 million. That drought response 
was allocated, it included an additional $4.5 million for the 
WaterSMART program, the WaterSMART grants, and $4.5 million for 
the Title 16 program.
    So those monies would go toward--we have put out, we have 
already put out funding opportunity announcements for both of 
the programs or are close to putting them out. We generally get 
many more applications than we have funds to go around.
    Mr. Calvert. So you haven't made any specific 
recommendations as of yet where this money is going to be 
spent?
    Mr. Lopez. For the individual projects?
    Mr. Calvert. Right.
    Mr. Lopez. No, not yet. We are close. We are in the 
evaluation process.
    Mr. Calvert. As you know, for the first time in history as 
I understand it, you are unable to provide any CVP water to the 
water service contractors. And the process on how you make that 
evaluation, forecasting, the hydraulic mauling tools, whatever, 
how do you make that determination about what you are going to 
deliver, for instance, in this year which is zero, how do you 
come to that conclusion?
    Mr. Lopez. We, first of all, track the amount of inflow 
into key reservoirs, Shasta Reservoir being one of the very key 
reservoirs, and at certain times of the year we note how much 
is in there and we project how much we expect to get into the 
reservoir.
    Mr. Calvert. Well, the reason I ask the question is during 
the five-year drought from 1987 to 1992, the water service 
allocations were, in those five years, was 100 percent, 100 
percent, 50 percent, then was dropped down to 25 and 25. And in 
2011, which was the ninth wettest water season we had since we 
have been taking history, we only allocated 80 percent when 
those reservoirs were at complete capacity.
    The next year you dropped it to 40 percent and then, to 20 
and now, we are at 0. What happened between 1992 and 2011 in 
the way you regulate, in the way you make your determinations 
on how have you allocated water?
    Mr. Lopez. Congressman, I think, as you know I wasn't here 
in 1992 or until just recently. However, I know of some things 
that have fundamentally changed the availability of water. And 
one of the big ones has to do with the Endangered Species Act 
and the Biological Opinions that are now in place.
    Mr. Calvert. You would say that the biological opinion is 
now in effect in the northern part of the State of California, 
the most recent biological opinion in regards to delta smelt 
and the pacific salmon, you would say on the record that that 
has the biggest impact of why the water is not being, for the 
first time in history, not being delivered to the California 
contractors that are asking for that water delivery?
    Mr. Lopez. Congressman, I can't say for certain if that is 
the largest effect. I know that it is a significant impact but 
in addition to that, there are new water quality standards for 
water in the Delta. Those things combined, the water quality 
issues, that is making sure that we keep salinity out of the 
Delta and the fish needs, those two things combined are very, 
very significant drivers that control how much water can be 
harvested for use----
    Mr. Calvert. Well, as you know, we have spent a significant 
amount of money through this Committee over the last 20 years 
in supposedly improving the water quality in the Bay delta. And 
doing significant amount of environmental projects that were 
front-loaded in order for us to move toward what we believed 
was a long-term solution in bringing both help to the delta and 
at the same time being able to meet our obligations for 
delivery of water.
    Part of that is water storage. You brought up that because 
of climate change that snow is now being replaced by rain. So 
by definition, we have to capture that rain when it comes along 
just like last weekend. We had significant flow of water.
    But as I understand, one, we don't have the water storage 
in order to capture that right now and want to get into that a 
little bit. And two, because of the Endangered Species Act, as 
recently as last weekend, you were not able to because of the 
lack of flexibility, were not able to pump to what would have 
been your allowable level.
    I haven't talked to Mike this week, Mike Hunter this week, 
but I understand that you were pumping less than 6,000 CFS when 
you have 30,000 CFS of water flowing underneath the Golden Gate 
Bridge. And the reason I bring this up, the City of Los Angeles 
is probably going to go, and the balance of Southern 
California, is probably going to go into mandatory rationing 
this summer.
    For the first time, the most severe rationing probably in 
the history of the City of Los Angeles and much of Southern 
California. And when people hear, like last year, a million-
acre feet of water went under the Golden Gate Bridge, which I 
understand without one risk of losing one delta smelt. Because 
of the lack of flexibility in which would be interpreted on how 
to move that water, people are going to get upset. So I would 
hope that all of you, yourself, you have a big job ahead of 
you, Mr. Connor, certainly the Secretary, is going to have to 
make sure we don't lose one drop of water.
    I think this last weekend we probably lost, I hear--I don't 
have the final reports but well, at least 10,000 acre-feet of 
water probably is gone because we were unable to pump that 
without any threat to smelt population.
    And, you know, I respect the fact we have the Endangered 
Species Act we have to deal with but if we are not threatening 
a species and we are unable to pump, that doesn't make a lot of 
sense to me. How do you feel about that?
    Mr. Lopez. Congressman, I know there is a lot of 
frustration over the water that is going out and not being 
captured. But let me take a few of the things that you have 
said. In the current situation, right now, we are not 
constrained by storage. We are actually constrained, I believe, 
by how much we are able to pump away from the Delta.
    And that is being driven, in large part, by the Endangered 
Species Act but the other thing is making sure that there is 
enough water going out of the Delta to keep saltwater from 
encroaching into it which would create a totally different set 
of water quality issues.
    Mr. Calvert. When you have 30,000 cubic feet per second 
flowing out and you are pumping 5 or 6,000 cubic feet per 
second, how is that going to allow for saltwater intrusion to 
get in the Bay delta? You have got water displacing seawater 
significantly more than the effect of that pumping operation.
    Mr. Lopez. I believe, in the storm event that you are 
talking about, you are absolutely right. There is plenty of 
water to flush out the saltwater. In this instance, it is the 
Biological Opinions that are constraining our ability to pump.
    Having said that, we are working very, very closely with 
fish agencies, the U.S. Fish and Wildlife Service, the National 
Marine Fisheries Service and the California Fish Agencies, to 
maximize the amount of flexibility. They put forward their best 
judgment about how much flow needs to go out.
    But they have been, actually, very responsive to 
recognizing the need and recognizing the severity of the 
drought and they have been allowing for more flexibility than 
was originally in the Biological Opinions.
    However, they have----
    Mr. Calvert. That didn't happen this weekend.
    Mr. Lopez. Congressman, it did but perhaps not as much as 
everyone would like and this is what I mean. They required, in 
order to get some of that flexibility, they have required that 
we do things in a step-wise fashion. That we increase pumping 
in a step-wise fashion and we monitor the impacts of those step 
increases as we go.
    Monitor by sampling for smelt and for salmon, both, and so, 
over this weekend we ultimately did get to 6,000 CFS of 
pumping. But it was done in increments where they took the 
amounts up in increments of about 500 CFS and they checked to 
see that they weren't creating problems along the way. Then, 
they took it up some more, take it up some more and that is 
kind of the way they are allowing the flexibility to happen by 
doing monitoring in real time and making decisions that are 
well reasoned.
    One of the reasons that they are not--that they have not 
endorsed simply cranking on the pumps and really taking as much 
water as they can is, and I understand this from last year, 
that last year there was an instance where some of that was 
done and as a result, some of the smelt moved into the area 
where the pumps are. At that point, they had to constrain 
pumping dramatically.
    Mr. Calvert. I understood that was less than 50 smelt.
    Mr. Lopez. It is very few Smelt. I, you know,
    Mr. Calvert. These are 50 minnows, by the way.
    Mr. Lopez. The numbers that they use to guide whether it is 
allowed or not, it is an extrapolation. They measure how many 
they catch and they extrapolate. If they are catching that many 
that means a much larger number is actually being impacted. I 
am not the biologist. I don't claim to know all of the validity 
of the statistics but that is my understanding of how those 
numbers work.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Simpson. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Commissioner Lopez, let me join my 
colleagues in welcoming you to the Committee. First of all, I 
just want to say Los Angeles always keeps getting mentioned and 
I think in a lot of ways we get a bad rep. While it is true we 
are going to have to have these measures in terms of 
conservation, I don't have the exact date but I just want to 
say that the level of water usage in Los Angeles today is 
somewhere at the same level it was in the 1980s. So Angelinos 
have done a pretty good of doing their part in trying to 
conserve water.
    Now, if I understood you correctly, the $50 million in 
funds that the Bureau of Reclamation has allocated for the 
Western Drought Response, you still haven't decided on the 
types of projects and activities that you plan in implementing 
in California for 2015, is that correct?
    Mr. Lopez. No, that is not correct.
    Ms. Roybal-Allard. That is not correct? Okay.
    Mr. Lopez. The projects that we haven't selected yet are 
the ones that have been proposed for WaterSMART Grants or Title 
XVI. But there is a whole--another long list of projects that 
we have identified specifically and California was the largest 
recipient of some of that drought money.
    Ms. Roybal-Allard. But could you elaborate then a little 
bit on what types of projects and activities you plan then?
    Mr. Lopez. Sure, we can. For California in particular, 
first off, the reason that California got so much of this is 
that California is kind of in the bull's eye of the drought. If 
you look at the drought maps, the drought shows up on these 
maps as red, you know, the more intense red being the more 
severe drought. And right now, if you look at those drought 
maps, most of California is dark, dark red. And that is the 
most intense drought anywhere in the nation right now.
    And so, what we have done is we have allocated $19, almost 
$20 million, $19.9 million to Central Valley project areas. And 
we did this, we described it to try and get as much flexibility 
as we can in how it is used. Such that if it is needed for 
emergency situations, that the water managers will have it at 
hand to use for those things.
    But then, we broke that $19.9 million into six or seven 
specific projects. If it is not needed for those emergent 
things, there are a number of things that can be done. For 
example, for some gates that control cross-channel flow and for 
some monitoring on some of the fish things, those are just a 
couple of examples but we have identified six specific projects 
that that money could be used for.
    And in addition to that, California also benefits. We have 
allocated 18, or excuse me, $8.6 million to some projects, 
drought response projects on the Lower Colorado River. In Los 
Angeles in particular, Los Angeles takes water both from the 
State Water Project that brings water from the Bay Delta area 
but also, Los Angeles receives a significant portion of its 
supply from the Colorado River. So that will benefit California 
as well.
    Then there are the ones that I was talking about earlier, 
the WaterSMART Grants and the Title XVI. Those things are 
applied via competitive processes and those are the ones where 
we haven't yet selected the----
    Ms. Roybal-Allard. I see.
    Mr. Lopez [continuing]. Specific project.
    Ms. Roybal-Allard. Okay. Besides the 50 million that we 
were just talking about, you know, given this recurring drought 
that we have in the West, what additional and more specific 
activities does the Bureau plan on implementing and what would 
be the total cost that the Bureau plans on spending on 
preparedness and response during FY2015?
    Mr. Lopez. I am sorry, could you restate the question?
    Ms. Roybal-Allard. Yeah, well, in addition to the projects 
that you were just talking about, are there additional 
additional, and more specific activities that the Bureau is 
planning to implement, with regards to drought preparedness and 
response.
    Mr. Lopez. Okay. So, specifically out of the extra funds 
that we got last year, out of that 50 million, we also 
allocated $5 million specifically to the Drought Response and 
Comprehensive Drought Plans. We recognize that this is going to 
be a continuing type of activity, and we want to encourage 
communities, and states, and the people that we deal with, to 
think proactively about how they will respond in times of 
drought, what sort of measures can they take to impact their 
own demands and that sort of thing.
    So, we have allocated that amount, but besides the 
additional monies that we got, and how we allocated those, our 
general budget has a number of things, that we are constantly 
dealing with things that will impact our ability to withstand 
drought. You know, all of what we do is all about making sure 
that water is available in drought.
    On the Colorado there are huge storage reservoirs, on the 
Colorado River, Lakes Mead and Powell, but for those reservoirs 
and all of the people that rely on the Colorado River supply 
would have probably been out of water two or three years ago. 
Those reservoirs combined store something like a four-year 
supply of water, and we have been able to withstand multiple 
years of drought as a result of these efforts. So, it is really 
part of our overall basic mission, in terms of helping 
withstand droughts.
    Ms. Roybal-Allard. I just have one final question. Are 
there any temporary changes that the bureau is planning to make 
during this fiscal year to better manage the water supplies and 
make water available for use during the drought?
    Mr. Lopez. Going back to what I was speaking about with 
Congressman Calvert, in the operation of the Central Valley 
Project, there are some specific, temporary plans that are for 
this year in particular. We have worked with the State, and the 
State Water Project, and the fish agencies.
    All of us have worked, combined, to develop a Drought 
Contingency Plan for 2015 that has a whole series of things 
that we are coordinating to try and make sure that we are able 
to capture as much of the water as we possibly can in this very 
trying time.
    Ms. Roybal-Allard. Okay. Those are all flexible, and I see. 
Okay.
    Mr. Lopez. We have tried to build in as much flexibility as 
we possibly can.
    Ms. Roybal-Allard. Mm-hmm. All right.
    Mr. Lopez. And it is still important to make sure that we 
are protecting the environment, while maximizing water 
availability to the farmers and to the municipalities.
    Ms. Roybal-Allard. Okay. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Valadao.
    Mr. Valadao. Thank you, Mr. Simpson. Commissioner I 
appreciate the position you are in now, obviously coming into 
this and the disaster we have got going on in California, you 
are obviously in a very tough position. But no matter how we 
look at this, this is something that has to be addressed, and 
has to be addressed quickly.
    The comments you made about the TUCP earlier, and how you 
are working with some state agency, since it has been basically 
shut down by the State Water Resources Board when they said, 
no; and you had the support of the U.S. Fish and Wildlife, 
National Marine Fisheries, California Park with Fish and 
Wildlife, for that added flexibility. What have you done to put 
pressure on the State Water Resources' Board, to make sure they 
do approve this temporary flexibility so we can get some water 
pumped?
    Mr. Lopez. Well, Congressman, as I understand it, the 
denial of one element of our permit----
    Mr. Valadao. The most important part, where we can actually 
pump water?
    Mr. Lopez. An important piece, admittedly. That was by----
    Mr. Valadao. Was it the State Water Resources Board, that 
denied that portion of it?
    Mr. Lopez. It was not the Board in total. So the Board, 
still, can weigh in on it, and that is--I think there is an 
appeal to the Board.
    Mr. Valadao. Well, I signed onto a letter, as did Mr. 
Calvert, and Senator Feinstein, and others, so that we can 
voice our opinion that this needed to be approved. It is very 
important to us, and I hope that you can use everything--every 
power that you have got, to put some pressure on them as well.
    Back in December of 2014, Secretary John Laird, Secretary 
of Natural Resources in California, wrote a letter in 
opposition to a Bill that I wrote, introduced last year in 
Congress. And what he stated was, ``As a result of the drought, 
of emergency declared by the Governor on January 17, 2014, 
California state agencies have worked very closely with their 
Federal counterparts and impacted stakeholders to provide 
critically-needed water supplies while protecting our water 
quality in imperiled species and fragile ecosystems. All are 
suffering from these unprecedented drought conditions.''
    One other Federal counterpart's reference in the statement, 
is the Bureau of Reclamation, ``How much critically needed 
water was supplied to South-of-Delta, CVP AG service 
contractors and farmers, as a result of this work described in 
the Secretary's letter,'' and I think we both know the answer 
to that, it is pretty much zero, and there might have been a 
percent or 1 thrown in there. And how much do you believe will 
be allocated this coming year? I am assuming another zero.
    Mr. Lopez. Congressman, I do not know what the allocations 
are going to be yet, but the outlook right now is looking very, 
very similar to what it looked like last year.
    Mr. Valadao. Yeah. So, I have got a few cities in my 
district as well, some of the most underserved communities, 
obviously in the Valley, Abeno, Coalinga and a few others, that 
have their M&I, Municipal and Industrial Water, and they are 
allocated to a certain amount of water.
    And when those numbers come out on paper, they always look 
really large, and they come out like at 75 percent, sometimes 
80 percent, or 90 percent, and everybody thinks, well, they are 
getting all their water.
    But the problem with that statement is it has always 
followed 75 percent, or the number of their historical use; and 
every year that 75 percent of their historical use, that 
average keeps getting notched, lower and lower and lower; and 
so some of these communities are under 50 percent, barely 
struggling to stay over 40 percent.
    And so when the Governor is very proud of the fact that the 
state has learned to live with less, 20 percent, the 
constituency in those parts of the district, are laughing at 
that number saying, we have make up the majority of that 
average, and we help bring that number down, and they get 
absolutely no credit for it and no relief when this drought 
does take effect.
    I know that is something that is very important to my 
constituents, the people there, and I would like you to just 
know a little bit about that situation. And then in my 
district, and this is another, there are people now, who two 
years ago had jobs. They were working on farms, and they had 
homes, and we got a lot of stores and a lot of businesses in my 
district that are struggling. But this people that had jobs 
back then, had homes. And now they are basically living in 
shacks build along canals out in the middle of nowhere. I do 
not know if you have seen any of those pictures, but I know 
that some of those pictures have been in the capital.
    These are people that are out of work and standing in, you 
know, food lines, because farmers have no water. According to a 
March 2014 letter, from Fresno County Sheriff, Margaret Mims, 
to the California State Water Resource Control Board, which I 
would like to enter into the record.
    ``Reclamations failure to deliver water to farmers in my 
congressional district is having what Sheriff Mims refers to as 
an immediate public health and safety----''
    Mr. Lopez. There is, as you know, it is a crisis, there is 
no water and we cannot make water, and we have the 
responsibilities for certain priorities of delivery, and we are 
doing our best to makes sure that we meet the health and safety 
requirements, first and foremost, but----
    Mr. Valadao. I would like you to be really careful with 
that statement because I hear that a lot, with, we cannot make 
water. We all know we cannot make it rain, we all know that we 
cannot produce water here, but back to the comments made by a 
lot of members here, there have been real water from my 
constituents and for many south of me. And so it is something 
that whenever we fall back on that line of trying to make 
water, there is ways that we can produce, save, and produce 
some water for our constituents.
    So I would appreciate it if you just take that comment a 
little more to heart, and careful with that line in the future. 
So, thank you.
    Mr. Simpson. Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you Mr. Chairman. Powering our 
future initiative; I have three questions and they all relate 
to different things, so I am going to start with this one 
first.
    On your testimony you talked a little bit about this 
initiative and I wanted to see if you would expand on it, as it 
relates to hydropower, because as I understand the goals, the 
program is to promote renewable sources of energy, hydropower, 
and in my mind it should be at the forefront of an initiative 
like this, since it is the cleanest, cheapest and most 
reliable, if not the only really strong reliable source of 
renewable energy. I wanted to hear if you had a plan for 
hydropower as you move forward.
    Mr. Lopez. Thank you, Congresswoman. We had a bit of a 
discussion about that, earlier, about how oftentimes hydropower 
is not counted as renewable, and I think it is all about how 
they've defined it, or how we have set baselines. Basically, if 
it was already in our baseline, it is not counted, and it is 
only if it is incremental that it is counted. But there is a 
significant opportunity for incremental power within our 
facilities.
    We still hold a lot of water, and we have identified, I 
think it is something like 300 megawatts of additional 
potential for generating additional hydropower Reclamation-
wide, off some of our facilities. Oftentimes, we do not have 
the capital to make the investments that would be needed, so 
what we have done, is we have got a Lease of Power Privilege 
Program, whereby our partners, the people that operate or 
benefit from our facilities, can make an investment, and they 
can get some of the benefits of that to try and develop as much 
of that additional power as we can. So those are some of the 
examples.
    Ms. Herrera Beutler. And, you know, I had a sense of 
Congress Resolution, I think, last year that I might be working 
on again this year, the last Congress. To count hydro as 
renewable, at the Federal level, at the very least; because I 
now can. So it is interesting if we have an existing 
infrastructure that we are not fond of, coal, whatever. I mean 
I have one coal fire plant in my district, and at the state 
level, they had really, they had slated it to close, so we 
basically have none of that. But if we have it, we counted 
against us, but if we have something amazing like hydropower 
which produces, 60-plus percent of the energy for Washington, 
Monticello Dam, California, and they all count it as renewable. 
We do not count it; so it feels like we need to bring some 
common sense to how we look at an amazing, clean, carbonless 
source of energy. All right, moving on.
    Quagga Mussels; quagga mussels are a pretty big threat to 
our infrastructure, and in Washington, our PUDs, imports have 
been speaking to me a lot about their concern on their assets, 
invasive species, with several threats when it comes to 
invasive species, but this is the one they have been talking to 
me a lot.
    And I wanted I wanted to hear what steps the Bureau is 
going to be taking to address this particular species within 
its own facilities and, hopefully, how you can help Park 
Service and Fish and Wildlife, as they move forward so we can 
prevent the spread.
    Mr. Lopez. Before I get into the question of Quagga 
Mussels, regarding hydropower I just want to mention that I 
recently got an opportunity to tour the dam you were talking 
about.
    Ms. Herrera Beutler. Oh.
    Mr. Lopez. I got an opportunity to go up into Washington, 
to Grand Coulee.
    Ms. Herrera Beutler. Oh, yeah.
    Mr. Lopez. And that is an amazing facility that generates a 
huge amount of hydropower.
    Ms. Herrera Beutler. Yeah.
    Mr. Lopez. So, I agree, hydropower is something that we 
ought to be doing as much as we can with it.
    Ms. Herrera Beutler. Thank you.
    Mr. Lopez. Going back to the question of Quagga Mussels, 
these are invasive and very difficult organisms to deal with. 
They have been moving into many of our reservoirs, as you are 
probably aware. If a boat goes into an infested reservoir, some 
of the larva can attach themselves to the boat, and then if 
they go into a reservoir that did not have them in it, it can 
in that way, in essence, infect that reservoir.
    So, we have been working with some of the parks that 
control access into reservoirs and so forth, to try and get 
decontamination facilities, those sorts of things. But in 
addition, this year, we are doing a significant amount of 
research. We are focusing some research on Quagga Mussels, how 
to control them, you know, and also developing--quite frankly, 
trying to develop materials that they cannot really stick to.
    For example, on the Colorado River, some of the reservoirs 
that are already infested, that take water for Los Angeles, and 
other communities, they increased the operations cost 
dramatically, because you have to clean these screens all the 
time. So if we can develop materials that they cannot adhere 
to, that might help us deal with it in a different way.
    But this is going to be a continuing challenge for us and 
for anybody that has any waterways to deal with, and we will 
work with all of the other entities to learn from them and, 
hopefully, find a solution to this.
    Ms. Herrera Beutler. We appreciate that. And one final 
question, and it has to do with fish passage, I cannot say that 
fast once, let alone 10 times. I was very happy to hear about 
the Yakima Basin, the support that you are giving to the Yakima 
Basin for its water enhancement project, fish passage, 
sometimes I can say it, fish passage is incredibly important to 
our regions, and I mentioned hydro earlier.
    We really have an amazing success story to tell with regard 
to how we have worked, and how peers in our region, and how 
tribes, and how the communities have come around to allow for 
that hydro project, and in addition we have had record returns 
for our salmon population, our wild salmon population which is 
incredibly important to us, and we are working on continuing 
fish passage.
    So, in the FY '16 request for fish, I wanted to hear how 
the fish--I am sorry guys; it is how your fish passage budget 
this year compares to what you have done last year. We are 
hopeful for continued interest and investment on your part. And 
in the selection process, just as a hint about how you did 
selection process, where you spent that. I wanted to hear what 
your thoughts are, when you are deciding that money.
    Mr. Lopez. So, I can tell you a little about how we did the 
selection process for this, just recently.
    Ms. Herrera Beutler. Thank you. Yeah.
    Mr. Lopez. In the additional monies that were allocated in 
2015, a portion was allocated specifically for Fish Passage. 
I'm sorry, I am not sure that I said Fish Passage any better.
    Ms. Herrera Beutler. I am sorry. I will try not to laugh.
    Mr. Lopez. There was $4 million; $4 million that was 
allocated to that, and basically what we tried to do was to 
select a couple of projects that we knew that could benefit and 
that was ready to move forward on this thing; and the Cle Elum 
Fish Passage, that was one of them. So, we try and find 
projects that are ready to go, we try and distribute the money, 
kind of, geographically; those sorts of things.
    Where we can make an impact immediately, that is the 
selection process; for this year's, for the 2016 Request we are 
requesting a little bit over $5 million for Cle Elum Fish 
Passage.
    Ms. Herrera Beutler. Great, great. Thank you.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. Commissioner; Mr. 
Wolf, good to see you all today. I have some questions about 
dams and dam safety. Dam safety continues to be a high priority 
for the subcommittee. Around of Reclamations dams are more than 
60 years old. A couple and age and improved understanding of 
hydrological and seismic issues, and change in construction 
practices, you have quite a challenge in ensuring the safety 
and security of the nation's dams.
    I have three questions in this regard. How often do you 
perform risk assessment of the dams?
    Mr. Lopez. Congressman, this is going to be subject to 
check. I know I read this recently, but I believe we have--we 
try and rotate through all of our facilities on no longer than 
an eight-year cycle. Is that correct? Eight-year cycle----
    Mr. Fleischmann. Eight-year cycle?
    Mr. Lopez. And in addition if we know of, or if we are 
going to be there for another reason, even before that eight-
year cycle comes up, we will do an assessment of it. Or if 
something is brought to our attention that we know might bear 
additional scrutiny, we will certainly go out there, on a more 
frequent basis.
    Mr. Fleischmann. Thank you, sir. How does the Bureau 
prioritize future safety and security work on the dam, sir?
    Mr. Lopez. We try and assess the impact of failure, 
including, if there is potential loss of life that's, 
obviously, one of the things that we will put at a highest 
priority. I am not intimately familiar with the process, but 
basically if we try and assess the probability of failure, and 
we look at if there were a failure what would it impact?
    For example, if a city has grown up right below a dam, and 
if the dam were to fail it would create large loss of property 
and life. That is going to be given the highest priority. 
That's the sort of consideration that we take.
    Mr. Fleischmann. Yes, sir. As a follow up to that, 
Commissioner, what is your plan to deal with the inevitable 
increase in the amounts of dams that will require 
infrastructure and safety activities in the coming years?
    Mr. Lopez. In the current year's budget we have allocated 
$88.1 million to that of which $66.5 million is to deal with 
problems that we have already identified, and deal with those 
directly. A bit over $20 million is to continue our assessments 
of all of the rest of the dams.
    But I think, that in general, this is one of our 
priorities, to make sure that we have safe facilities. So we 
continue to look out for, and this is one of our priorities in 
terms of the aging infrastructure that we have to maintain. It 
will continue to be. It has to be.
    Mr. Fleischmann. Does reclamation conduct a comprehensive 
review or keep a comprehensive list of maintenance needs and 
costs?
    Mr. Lopez. Congressman, we do, but that is a difficult 
question. I know that in----
    Mr. Visclosky. I'm sorry, I didn't hear the question.
    Mr. Fleischmann. Does reclamation conduct a comprehensive 
review or keep a comprehensive list of maintenance needs and 
costs?
    Mr. Lopez. We track all of our rehabilitation needs and so 
forth. However, we do not generally try and lump them all into 
one lump sum figure. What we try and do is establish, kind of, 
a five year work plan of the Aging Infrastructure, and figure 
out how we would address that over a five year period that 
makes sure that we keep the most critical needs at the highest 
priority, and then move into the next phases as they come in.
    Mr. Fleischmann. Okay. One final question, Commissioner, 
presumably the budget request does not fund every maintenance 
need. Do you know how big the maintenance backlog is, sir?
    Mr. Lopez. So this is related to the last question. Our 
agency, I believe, I am told that we define backlog differently 
than some of the other agencies that we deal with or that you 
may deal with.
    If we have programmed a certain project, if we have planned 
on doing it, say, in the next year, and then for whatever 
reason we do not do it be it we just do not have the resources, 
whatever the case may be. That we would term a backlog. Not the 
overall outlook into the future.
    So the way we have approached this is we look at what our 
most critical needs are, and establish, kind of, a five year 
window or a five year work plan for that. And on the basis of 
that five year work plan we have estimated an aging 
infrastructure funding need of something like $2.9 billion. But 
not all of that would need to be appropriated monies. We 
estimate that about 36% of that would need to be appropriate, 
and that is over a five year period.
    The addition would be either from power partners or the 
beneficiaries' cautionary partners that we would be looking to 
fund the incremental costs.
    Mr. Fleischmann. Thank you, Commissioner. Mr. Chairman, I 
yield back.
    Mr. Simpson. Thank you. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman, and welcome. 
Commissioner Lopez, I am very concerned about the public health 
and safety implications of allocation decisions, and the over 
drafting of our groundwater basin in and around my Silicon 
Valley district.
    Last year the ground water reserves in Santa Clara Valley 
were drawn down 80,000 acre feet. Our county experienced 14 
feet of historical subsidence, prior to 1970, with much of the 
county already subsided below sea level. Our region is densely 
populated with waste water treatment plants, sewer and water 
lines, rows and foot controlled levies that traverse; areas 
vulnerable to subsidence.
    Even if Santa Clara Valley Water District were to receive 
its expected 50% municipal and industrial allocation or 
approximately 65,000 acre feet from the Central Valley Project 
it will still be a challenge to address the risk of subsidence 
in our country. They'll be likely not enough water supply to 
meet Silicon Valley's projected indoor residential, and 
commercial and industrial demands, our public health and safety 
needs, if you will, without pulling from our groundwater basin.
     In Silicon Valley the groundwater basin is used to balance 
our water supply needs, but it is critical that in doing so we 
avoid land subsidence in the San Jose area.
    So, obviously, this awful draught has left the Bureau with 
significant challenges the past three years. So I wanted to ask 
your thoughts on how public health and safety issues should 
come into play when we are making difficult decisions about 
allocation decisions?
    Mr. Lopez. Congressman, thank you for your question. Public 
health and safety has to be given one of, if not the highest 
priority, in terms of allocations. We have a lot of contractual 
obligations that we have to meet. We have environment 
regulations that we have to meet, but public health and safety 
has to be given a high priority as well.
    The problem that you highlight, the fact that the last few 
years there has been so little water that you have had to go 
more and more towards groundwater is, obviously, a huge 
problem. I think to the extent that communities are able to 
find alternatives, potentially desalination, reuse, things of 
that nature. Those are, obviously, much preferred.
    Mr. Honda. Yes. I appreciate the level of concern and where 
it sits in the allocation decisions, but in Silicon Valley the 
driving force in our economy is technology. So we have 
commercial, high-tech, including the public consumption of 
water, so it seems to me that that kind of consideration 
hopefully played a large part in how we look at allocations. 
Because I think sometimes we make allocation decisions based on 
historical uses, urban versus ag, and I think with ag we are 
even looking at how we are going to allocate ag waters if they 
have certain kinds of conservation practices. So with that, 
appreciate some thoughtful considerations on that area.
    On the Bay Delta conservation plan can you provide us with 
an update on the status of efforts on the Bay Delta 
conservation plan, and what has been the federal role to the 
state?
    Mr. Lopez. Congressman, the Bureau of Reclamation continues 
to work very, very closely with the state and the other 
agencies that are looking at this thing, notably the Fish and 
Wildlife Service, the National Marine Fishery Service, 
California Department of Fish and Wildlife, and the California 
Water Agencies to try and figure out how to move this forward.
    As I think you know, we have been through an EIS, 
Environment Impact Statement, California in an Environmental 
Impact Report last year, and then we put it out for comments 
and got thousands of comments. We have adjusted, and we 
recognize that there needs to be a supplemental EIS or 
Environmental Assessment. We are getting ready to finalize 
that. We should have that sometime in the Spring to be able to 
put out and keep that process moving forward.
    Mr. Honda. In that 2016 budget request of the reclamation 
section what federal role is envisioned under that current 
plan, and what kinds of costs would be involved at the federal 
level, and are those costs including reclamation activities or 
include other federal agencies that will be included in 
reclamation or that kind of activity? So just kind of curious 
how much and what role it is going to play.
    Mr. Lopez. So I have described, kind of, the agencies that 
I am familiar with that are working on this, but for our 
budget, for our portion of that work, we have requested $4 
million for continuing our part of that process.
    Mr. Honda. So I can pursue how that would be distributed 
and what we can expect to spend it on?
    Mr. Lopez. Mr. Chairman, yes. I think that it basically 
would be to continue the sort of, technical work that needs to 
go into this, sort of, continuing to move this environment 
compliance forward.
    Mr. Honda. Thank you, Mr. Chairman. Appreciate it.
    Mr. Simpson. Thank you. I think I kind of see how this 
committee is going to breakout now after this just being our 
second hearing is that we are going to have California water as 
the main issue, and with the four Californians that do not 
always agree on the best solution to everything, and it is 
going to be the rest of us trying to protect ourselves from 
California with Representative Herrera because they want our 
water.
    Mr. Honda. Idaho has a lot of beautiful water.
    Mr. Simpson. Yes, it does. First, just kind of a technical 
question I need to ask, Fiscal Year 2012 reclamation was 
directed to assemble data on pipeline reliability for a variety 
of types of pipe, and to conduct an analysis of a performance 
of these types of pipes. Additional clarification was provided 
in subsequent fiscal years, including that reclamation should 
take all steps possible to avoid even the appearance of bias in 
this work.
    Can you please provide the committee with an update on what 
is being done in response to these directives, including 
reclamation's role, and what activities are being conducted by 
an outside entity? And when will this report be completed and 
submitted to the committee?
    Mr. Lopez. Mr. Chairman, yes. This has been a long running 
issue for Reclamation. Following the National Academy of 
Science Report that was done a few years ago, one of the items 
that that National Academy of Science Report identified was 
that the amount of information or the amount of data on the 
corrosion rates of various types of pipe was, kind of, lacking.
    So coming out of that we were directed to conduct that sort 
of survey on the various types of pipes that are out there. We 
have done that. We have formulated the survey documents or what 
we need to do the survey. Then it became apparent that there 
was concern about whether we could do that objectively or 
whether we would be biased and try and drive the outcome of the 
survey. So we were instructed to have an independent entity do 
that. We are doing that.
    In developing, kind of, the scope of the survey and all of 
that we are required to make that available to the public 
before going out and starting the work. We have done that, and 
we have put it out to the public for 60 days, and right at the 
end of the comment period we got a very large amount of 
comments. As a result, we redid the survey instruments, and we 
put it out for public comment again.
    Halfway through that process some of the interested 
Congressmen asked if we would give additional time for comment 
on those things. We accommodated that. That moved the timeframe 
into December, I believe it was. We are now trying to still 
finalize the thing.
    We had anticipated that we would be able to do all of this 
by this September, September of 2015. Because of these delays 
and the comments that we have tried to accommodate we think 
that it will now take us into mid-2016 to complete all of this, 
assuming that there are no further delays.
    Another element that you asked about was what role we would 
play. As I mentioned, there is concern about whether we can be 
unbiased in that process, so we had already planned on having 
an independent contractor do the work. Now we have been asked 
to have an independent contractor do the analysis, the economic 
analysis, that would follow up on the results of that. That is 
part of our plan as well.
    Mr. Simpson. Okay. Thank you. I want to get into just a 
little bit something that Mr. Visclosky and I were talking 
about that has come up. Having been ranking member and chairman 
of this committee we both have, kind of, an interest in this. 
That is the future. We do not like to be surprised. Do you have 
a five year plan in place for your agency, five year work plan?
    Mr. Lopez. Mr. Chairman, as I mentioned we have a five year 
plan as relates to, kind of, our infrastructure and the aging 
infrastructure and making sure that we can deal with that. We 
have that. Is that what you are referring to?
    Mr. Simpson. That and, as an example, today in this budget 
we are funding three of the four Indian water rights 
settlements proposed in this new account, and it has increased 
significantly in this budget request.
    Some of these settlements have statutory deadlines for 
completing work. Are we on track for those deadlines? Can we 
anticipate over the next five years what we are going to be 
spending on Indian rights settlements on water rights and 
stuff, in all of those categories?
    I guess to ask it in kind of a not too specific way, and I 
will not ask you to do this, but if you ran a business I could 
go back and sit down and probably put together, if someone 
asked me to, what it was going to cost me to run my business 
next year, and what I anticipate it is going to cost me in a 
couple years.
    Understanding that there are, sometimes, things that happen 
to change those plans. Could you do that, and I am not going to 
ask you to do it, but could you tell us what, and I am not 
asking you to actually tell us, but if you had to could you 
tell us what you think the budget will be for the next year and 
the year after?
    Mr. Lopez. Mr. Chairman, yes, I think. And going back to 
your question about the Indian Water Rights Settlements and so 
forth, this year showed a significant increase on that, and it 
is driven by the statutory deadlines that are built into those 
settlements, and making sure that we can meet those deadlines 
for implementation.
    I am told, I spoke with Mr. Wolf earlier that the level 
that we have asked for this year, the $112.5 million, should, 
essentially, stabilize. We may have a little bit of an 
increase, but not a big increase. That is assuming that we are 
focused on the settlements that are now currently in place.
    Obviously, if we get new settlements that add additional 
responsibilities that changes that picture. But for the 
settlements in place we think we are, essentially, a stable 
funding level.
    For the rest of this, in general, we have been over the 
course of the last eight years or so, essentially, very close 
to an overall flat budget. I would anticipate we would be, 
essentially, the same. We will have to reorder our priorities 
within that as we move forward.
    Mr. Simpson. When you talk about the Indian water rights 
settlements, is this for the negotiation of the Indian water 
rights settlement or is this payments that were negotiated? In 
other words, are we appropriating money for that or does that 
come out of the Judgment Fund?
    Mr. Lopez. The $112.5 million that I am talking about is 
for the implementation of settlements that have already been--
--
    Mr. Simpson. Negotiated?
    Mr. Lopez. Negotiated and approved by Congress. In most 
instances, the monies that are being put out, that we are 
asking for, is to build infrastructure that is a compliment of 
the settlement.
    Mr. Simpson. Okay, I appreciate that. Thank you, Mr. 
Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. I just would make a 
comment in conjunction with what the chairman said on the work 
plan, $2.9 billion over five years, if I am doing the 36 
percent correct, that gets me at about $1.44 billion, which 
divided by five, five years, is 18 percent more than you asked 
for this year.
    I despair that this institution continues not to address 
the issue of entitlements and adequate revenue, because I do 
not see how you get your work plan done, which is no failing of 
yours.
    On dam safety, a number of questions were asked. I would 
have one on the authorization ceiling. The Bureau has indicated 
that reauthorization efforts for the Safety of Dams Act would 
need to be completed prior to the submission of one of the 
modification reports planned for fiscal year 2016 and future 
modifications.
    Authorization extensions were called for in the budget for 
CALFED as well as the Secure Water Act. Why did the budget not 
include any recommended changes for the Safety of Dams Act, 
given the pressing need?
    Mr. Lopez. We have some room in the authority for the 
Safety of Dams Act, I believe, somewhere on the order of $383 
million still within the existing cap. You are correct, there 
is at least one dam that we have identified in Oregon, that dam 
by itself, the cost of that modification is estimated at about 
$450 million.
    Before that could be moved forward, we would need to raise 
the authorization ceiling. We did not request that. We know the 
Authorizing Committee is aware of it. It was requested last 
year, but they opted not to.
    Mr. Visclosky. I assume it will be worked on.
    Mr. Lopez. We hope to talk to them and see if they are 
willing to do that.
    Mr. Visclosky. Sooner rather than later.
    Mr. Simpson. Will the gentleman yield?
    Mr. Visclosky. Sure.
    Mr. Simpson. Is there any controversy with that, do you 
know, with the authorization committees or anything?
    Mr. Lopez. I am looking at Mr. Wolf, and he says no.
    Mr. Visclosky. One final question. The budget request 
increases funding for the resilient infrastructure investments 
account, it is a component of WaterSMART, by 67 percent.
    Could you provide for the subcommittee details of what 
Reclamation is doing with this line item, and how it 
compliments or is different from another line item, which is 
the examination of existing structures?
    Mr. Lopez. Let me describe the last portion first, the 
examination of existing structures is part of our Dam Safety 
Program that basically is again--I described earlier how we do 
an eight year rotation, make sure we inspect all of our 
facilities. That is what that portion is.
    Mr. Visclosky. Okay.
    Mr. Lopez. The Infrastructure Resilience Fund, we are 
asking a modest amount, $2.5 million. It is an increase over 
what we have had before. What we are trying to focus on here is 
not the infrastructure rehabilitation itself, but trying to set 
up the mechanisms and the protocols such that as a matter of 
course, when we know we have to rehabilitate infrastructure, 
that we are not just dealing with bringing it back to what it 
was before, but rather looking out into the future about 
climate change and what modifications can we change to make 
that infrastructure as we are doing that routine work, make it 
more resilient to withstand those kind of anticipated future 
changes, or as we were talking earlier about, kind of some of 
the environmental impacts.
    If there is something we can do as we are just doing some 
of our routine rehabilitation, upkeep, if we can anticipate the 
needs such that we do not have to come back and do a retrofit 
later, that is what that money is going to be focused on.
    Mr. Visclosky. Thank you. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. I just want to 
emphasize again, Mr. Valadao certainly brought this up, and I 
will do it again. The short term issue that we were just 
discussing on the flexibility to pump to the maximum degree 
possible under the existing biological opinion, I do not 
believe that is occurring.
    I will be talking to you and Mike in the future about this, 
but I do not believe it is occurring because of some of the 
difficulties that Mr. Valadao brought up and others that this 
is happening.
    When we get the final report, if we did lose 10,000 acre 
feet of water this last weekend, that is enough water to supply 
Mr. Valadao's small communities for the rest of the year. That 
is a lot of water. When you have 30,000 CFS, most people cannot 
even visualize that kind of water moving down and through the 
Bay.
    I wrote the CALFED bill a number of years ago. That was my 
legislation. How long has that been, 12 years ago? Something 
like that. We have had reports. We have had studies. We have 
had technical evaluations. We have had environmental reviews. 
If all that stuff was water, the drought would be over.
    We have been studying the various expansions of capacity 
and dams in California to move the construction of this long 
term solution of storage. A Shasta study was supposed to be 
done this year, I understand. The Upper San Joaquin River study 
is supposed to be done this year.
    We have had frustrations on the Sites Reservoir, and 
certainly we have some issues with a non-Federal share, and 
those issues have to be resolved.
    All of these things, at the end of the day, we have to 
finish these studies and we have to get on with it and start 
building reservoirs, and the long term solution to California 
is we have to get the storage completed. That was the intent of 
the bill. We have spent God knows how much money on 
environmental projects in the Bay area. That is great.
    We have to build the storage because Silicon Valley is 
going to be out of water. Los Angeles is going to be out of 
water. Southern California is going to be out of water.
    People like to joke about California, but we are a big part 
of the economy. You cannot do much without water. I will be 
leaning on you, Commissioner, Mike, and the Secretary, that we 
have to deal with this.
    I have not even got into the Colorado River. As you know, 
we have 67 million acre feet of storage in the Colorado River 
system. What are you down to right now in capacity?
    Mr. Lopez. We are down below half.
    Mr. Calvert. Below half. That is about as low as it has 
been since the creation of much of those projects, is it not?
    Mr. Lopez. Certainly, Lake Mead is down at a lower level 
since it was built.
    Mr. Calvert. Las Vegas is putting in a new tunnel to be 
able to capture water out of the bottom of Lake Mead. If Lake 
Mead runs dry, they are going to have to shut down that Palazzo 
Hotel. We will be having Frank Sinatra sprouting water. I make 
a joke about it. That is a big part of the western economy. 
Arizona is out of water. Nevada is out of water. New Mexico is 
out of water.
    This is severe. We cannot lose a drop of water. That is the 
point I want to make. We have to start building storage and 
resolve this problem for the long term.
    With that, Mr. Chairman, thank you.
    Mr. Simpson. Mr. Honda.
    Mr. Honda. I was going to ask a question, but I thought I 
would get into that discussion about water. We do not manage 
drought. We manage water. The drought issue is a phenomenon 
that is kind of global, I think, and it is affected by a lot of 
other things.
    We can figure out the different ways of recycling water, 
manage the water, things like that. Water is a finite commodity 
in the world, globally. I think it is something that California 
is going through, and we have not learned to manage a couple of 
things, and one is understand that water is a commodity that 
you can only get so much of, it is a limiting factor, I guess 
they call it.
    If we continue to grow our population without taking into 
consideration how we are going to have sufficient water for the 
growing population, then we are going to constantly face this 
issue of the shortage of water. It is really learning how to 
manage it.
    One of the ways is we could probably tap into Idaho's great 
rivers where large sturgeons are living. My point is I think as 
humans we have to start looking at the essence of the limiting 
factor that water presents itself in and how we look at our 
population, how we look at growth, how we look at management, 
and storage is one way but it is not the answer to this thing 
we call a ``drought'' that happens, that we do not have much 
control over, unless we understand other dynamics.
    I go to Idaho to enjoy your beautiful rivers. I think the 
salmon and the different places is something that needs to be 
preserved. I think Idaho has something to be proud of.
    We have some things to be proud of in California. We just 
have a large growth of people that want to live there, and I 
think we have to learn how, as farmers and ag people, learn how 
to manage that. A lot of them are doing it. I think we just 
have to learn how to manage our water.
    In California, we were rationing 25 percent in the last 
drought, and after the drought was over, we lifted it, and we 
should have continued our practice of managing and rationing 
our water so that we learned to live with what we can.
    A lot of it is going to be behooving upon us as a 
population to understand how we do that as a community. It 
affects a lot of people. I think this is one of the lessons I 
have learned. I think it behooves us to sort of share that 
insight, and at the same time, solve a problem.
    I do not think we as humans know how to do flood control, 
but we certainly should know how to manage the water that we 
have.
    I have a parochial question, in the words of the chairman 
that he used yesterday. The water hyacinth, what is happening 
with that in the San Joaquin/Sacramento Delta area? For some, 
it is a plant, and it is a beautiful plant, but for others, it 
is a weed. As a fisherman, it messes up my fishing. It just 
drags my line down the river.
    Mr. Lopez. I spoke earlier about some of the constraints on 
pumping water out of the Sacramento River Delta and so forth. 
Water Hyacinth, I understand it is an invasive species and it 
has been around for a long while, I think it may be an 
attractive plant but it can also completely clog these 
waterways. That is what has happened this year. It has 
completely clogged these waterways, including preventing us to 
really be able to operate those things the way we would like.
    We have been doing all that we can to remove that. There 
was literally, at least at the beginning of this, miles of this 
they were trying to clean up. They were moving a tremendous 
amount of these plants out of the area, but not really able to 
keep up.
    Since then, they have made some headway. A number of the 
irrigation districts are working with us, the State of 
California is working with us, providing resources. We are 
working on trying to clear out these things, but they continue 
to be a huge challenge.
    Mr. Honda. The use of fertilizers, is that a big 
contributor and something we should be looking at also?
    Mr. Lopez. Congressman, I do not know the answer to that. I 
was told yesterday something about the drought itself and 
perhaps the increased water temperatures might have been 
contributing to it, but frankly, I do not know the answer to 
what is driving that.
    Mr. Honda. Thank you.
    Mr. Simpson. Thank you. Mr. Valadao.
    Mr. Valadao. There was a lot in that last statement there, 
but one comment on transporting water across different state 
lines that would require a pipeline, and those are not popular 
back here at times.
    On the agriculture, I am the only farmer up here and I 
still currently farm. When we look at the pesticides that are 
being used throughout, and herbicides, the things we do use, 
they are so expensive and resources are so tight, there is no 
room for just throwing stuff on fields or just putting it 
around.
    I happen to be the guy that has the permit on our own 
personal property. The amount of work it takes for me to get my 
ability to hire a PCA and the permitting process he has to go 
through so he can come out and look at my fields and tell me 
what pesticides to use, for me to then hire another guy who has 
gone through a permitting process again to be able to apply 
those things, it is not as simple as the people that go to 
town, whatever hardware store they go to, and purchase 
whatever, and just put it on their grass without any specific 
measurements.
    There is a huge difference between agriculture and urban 
users. I just wanted to just make a point of clarification.
    Mr. Honda. If you would allow me to make a quick comment, I 
was trying to make a distinction between urban users and ag, 
and I think urban users, we do put a lot of stuff on the ground 
with a lot of thought. I think that is probably a great source 
of the nutrients that run off. I think you guys are pretty 
scientific about it.
    Mr. Valadao. We have done everything we possibly can to 
save money and preserve resources.
    Commissioner, as you know, obviously building water 
restructure is very important to me and something I am very 
interested in. Yesterday, I met with representatives from the 
Sites Reservoir or Sites Project Joint Powers Authority, the 
JPA. They said they are on the verge of making great progress 
on the project itself.
    The JPA and the Bureau of Reclamation are working on a plan 
to get the feasibility study and the environmental documents 
completed no later than December 2016, which will help ensure 
the project is in a position to compete for the funds made 
available.
    The Sites JPA is pursuing investors and reaching out to the 
environmental community and land owners that will be impacted 
by the project.
    I want to make sure that the Bureau is committed to helping 
to move this project forward and that you have the resources 
necessary to help ensure the feasibility study and EIR and EIS 
are completed no later than the end of 2016.
    What steps is the Bureau taking on this project to make 
sure the deadline is met?
    Mr. Lopez. Congressman, we also met with some of those 
folks in the last couple of days. They are very focused right 
now on getting us what they need in terms of the agreements and 
so forth. We are working with them on developing a Project 
Management Plan. That is one of the key elements.
    Obviously, I am relatively new to this one, but I met with 
a group that included a number of people within our 
organization that are very familiar with what needs to be done. 
I got a very distinct impression during that conversation that 
we were all on the same page about being able to get to that 
deadline you are talking about and making sure a decision can 
be made relative to the funds. As I understand it, that is kind 
of the driver for that whole thing.
    Mr. Valadao. One of the issues with pumping on the Delta, 
there is a lot of blame to go around, if it is ESA or other 
things, but there is that issue, I think it is called 
``hyacinth,'' that weed, the invasive species that has come 
over on ships or whatever it was.
    Some money was brought in through that $50 million to help 
eliminate that issue. Is there anything going on or do you have 
any plans going forward with that to help remove that invasive 
species? I do not know what the proper term is for that. When 
are we going to see some action on that?
    Mr. Lopez. There is a lot of action going on right now. 
Basically, we are trying to get as many resources as we can to 
get that cleared out right now. We are finally having some 
impact. Initially, when we started out----
    Mr. Valadao. It is an underwater weed; right?
    Mr. Lopez. It floats on the water. As I understand it, I do 
not know much about this but I have been talking to a lot of 
people in the last few days about it, and I am told it floats 
on the water with kind of a bulb-ish mass on the top with roots 
that go down into the water. I am told it can be up to five or 
six feet thick, just floating on the top there.
    Right now, we have partners, the San Luis and Delta-Mendota 
Water Authority, the Central California Irrigation District, 
the Department of Boating and Waterways, the Department of 
Water Resources. They are all helping us to try to remove that 
right now.
    In some instances, we are entering into agreements, such 
that they can operate some of our equipment. We are trying to 
do all things to move that process forward.
    Mr. Valadao. It is a huge challenge. This is my last 
question, so I just want to thank you very much for taking some 
time out for us today, and I look forward to working with you 
in the future, and appreciate the chairman for giving me some 
time today.
    Mr. Simpson. Thank you. It is interesting sitting and 
listening to this debate and the questions about California 
waters and the drought down there. I went and visited the 
Central Valley in Mr. Valadao's district last summer, I guess 
it was, last May or so.
    To tell you the truth, I was shocked. I have never seen any 
place where agriculture has done as much to conserve water as 
they have in the Central Valley. You do not see sprinklers 
spraying water all over the fields and that kind of stuff like 
you do in most agricultural places, or flood irrigation, or any 
of that. It is all drip. They use as little water as possible 
to address the needs.
    It is also really kind of sad to see them taking out the 
almond trees and the pistachio trees. If the drought is over 
next year, they do not come back next year. A potato crop you 
cannot grow because of a drought this year, next year when you 
get water, you can replant it.
    Losing some very long term investment there that is 
important. Anyway, they do a great job in the Central Valley in 
trying to conserve what they have during these difficult times.
    Mr. Visclosky, anything else?
    Mr. Visclosky. No, thank you.
    Mr. Simpson. Mr. Honda.
    Mr. Honda. No, thank you.
    Mr. Simpson. Thank you for being here. We look forward to 
working with you, and congratulations on your confirmation by 
the Senate. The Senate finally did something that we are very 
proud of.
    Thank you for coming today, and we look forward to working 
with you as we put this budget together.
    Mr. Lopez. Thank you, Mr. Chairman. Thank you, members, 
appreciate the discussion.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bostick, General T. P............................................     1
Darcy, Jo-Ellen..................................................     1
Lopez, E. R......................................................    97
</pre></body></html>
